<html>
<title> - [H.A.S.C. No. 116-49] F-35 PROGRAM UPDATE: SUSTAINMENT, PRODUCTION, AND AFFORDABILITY CHALLENGES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-49]

                          F-35 PROGRAM UPDATE:

         SUSTAINMENT, PRODUCTION, AND AFFORDABILITY CHALLENGES

                               __________

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON READINESS

                          meeting jointly with

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 13, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-806               WASHINGTON : 2020                                     
 


                     SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Melanie Harris, Professional Staff Member
                 John Muller, Professional Staff Member
                          Megan Handal, Clerk

                                 ------                                

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 DONALD NORCROSS, New Jersey, Chairman

JAMES R. LANGEVIN, Rhode Island      VICKY HARTZLER, Missouri
JOE COURTNEY, Connecticut            PAUL COOK, California
RUBEN GALLEGO, Arizona               MATT GAETZ, Florida
SALUD O. CARBAJAL, California        DON BACON, Nebraska
ANTHONY G. BROWN, Maryland           JIM BANKS, Indiana
FILEMON VELA, Texas                  PAUL MITCHELL, Michigan
XOCHITL TORRES SMALL, New Mexico,    MICHAEL R. TURNER, Ohio
    Vice Chair                       DOUG LAMBORN, Colorado
MIKIE SHERRILL, New Jersey           ROBERT J. WITTMAN, Virginia
JARED F. GOLDEN, Maine
(Vacancy)
                 Heath Bope, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Hartzler, Hon. Vicky, a Representative from Missouri, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     5
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     2
Norcross, Hon. Donald, a Representative from New Jersey, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     4

                               WITNESSES

Behler, Hon. Robert F., Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................    11
Bromberg, Matthew F., President, Military Engines, Pratt & 
  Whitney........................................................    36
Fick, Lt Gen Eric T., USAF, Program Executive Officer, F-35 
  Lightning II Joint Program Office..............................    10
Lord, Hon. Ellen M., Under Secretary of Defense for Acquisition 
  and Sustainment, Office of the Secretary of Defense............     8
Maurer, Diana, Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     6
Ulmer, Gregory M., Vice President and General Manager, F-35 
  Program, Lockheed Martin Corporation...........................    35

                                APPENDIX

Prepared Statements:

    Behler, Hon. Robert F........................................   115
    Bromberg, Matthew F..........................................   142
    Fick, Lt Gen Eric T..........................................   100
    Garamendi, Hon. John.........................................    57
    Hartzler, Hon. Vicky.........................................    63
    Lamborn, Hon. Doug...........................................    59
    Lord, Hon. Ellen M...........................................    88
    Maurer, Diana................................................    65
    Norcross, Hon. Donald........................................    61
    Ulmer, Gregory M.............................................   124

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................   176
    Mr. Banks....................................................   174
    Mr. Brown....................................................   168
    Mr. Langevin.................................................   161
    Mr. Turner...................................................   164
    
    F-35 PROGRAM UPDATE: SUSTAINMENT, PRODUCTION, AND AFFORDABILITY 
                               CHALLENGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Subcommittee on Readiness, Meeting Jointly with the
              Subcommittee on Tactical Air and Land Forces,
                      Washington, DC, Wednesday, November 13, 2019.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the Subcommittee on Readiness) presiding.
    Mr. Garamendi. The hearing will come to order, and we will 
begin with opening statements. The normal process here is for--
I will open and then I am going to turn to Mr. Lamborn, and 
then Mr. Norcross, and then Mrs. Hartzler.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Good morning. I want to welcome everyone to 
this hearing, especially to my colleagues, who are Ron and 
Vicky and Doug, when he shows up----
    [Laughter.]
    Mr. Garamendi [continuing]. To this hearing--joint hearing 
of the Readiness Subcommittee and Tactical Air and Land Forces 
Subcommittee concerning the F-35 program.
    The hearing comes at a very critical time for the F-35 
program. After nearly two decades of development, the aircraft 
has entered into its operational testing period and is actively 
deployed around the globe, and has seen its first combat 
missions.
    Acquisition continues apace. We have delivered over 450 F-
35s to the Air Force, Navy, Marines, and key international 
partners. By 2023, the fleet is expected to include more than 
1,100 aircraft stationed at 43 operational sites.
    As the Department of Defense's costliest weapon system, it 
goes without saying that the F-35 has been the subject of much 
concern, criticism, and occasional optimism.
    With acquisition costs expected to exceed $406 billion and 
sustainment costs estimated at more than a trillion over its 
60-year life cycle, this scrutiny is warranted.
    In fact, sustainment activities will ultimately contribute 
to 70 percent of the program's total costs.
    So, today's discussion, the first F-35 hearing led by the 
Readiness Subcommittee, will rightfully focus on sustainment 
issues.
    The F-35 sustainment enterprise faces formidable 
challenges. These include unacceptable high operating and 
support costs; inadequate repair capacity at depots; spare 
parts shortages compounded by insufficient reliability of 
parts, components; and deficiencies in the platform's ALIS 
[Autonomic Logistics Information System] system.
    As a result of these problems, only about half of the F-35 
fleet was available to fly at any given time in 2017 and 2018.
    The program has had a complex relationship with its prime 
contractors, Lockheed Martin and Pratt & Whitney, who bear the 
responsibility for some of the program's sustainment challenges 
and problems, and from whom we will hear in the second panel.
    While the Department paid insufficient attention to 
sustainment in the program's early years--that bears repeating 
but I won't at the moment--we have seen an increased focus on 
the problems of sustainments resulting in measurable progress, 
and we acknowledge that progress.
    Costs per flying hour are decreasing and the aircraft's 
mission capability rates, while still too low, did increase 
this year, partially as a result of the spotlight placed on 
improving mission capability by former Secretary of Defense 
Mattis.
    Yet, attention to these problems must outlast any 
particular leader or directive. As we look ahead to the next 
few decades of the F-35 service, failing to create an effective 
cost-efficient sustainment system will diminish readiness, 
squander taxpayer resources, and discourage the services and 
our partners from continuing to purchase the F-35.
    This would create unacceptable risks for the program and 
would be an abdication of the trust and investment of the 
public and our allies.
    The capabilities the F-35 brings to the battlefield are 
essential to the objectives of our new National Defense 
Strategy and to those of our international partners.
    I am not interested in dwelling on the mistakes of the 
past, but I do think we all agree that the stakes are too high 
for us to allow this program to fail and we all--the Congress, 
the Senate, the Department of Defense, and the contractors--we 
all must take a constructive and collaborative approach toward 
solving the F-35 sustainment challenges, and I look forward to 
discussing how we can do that in today's hearing.
    Now, with the arrival of my colleague and ranking member of 
the subcommittee, and by the rules of this committee, I turn to 
Mr. Lamborn.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 57.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Well, thank you, Chair--Chairman Garamendi. I 
truly appreciate the opportunity to conduct this joint hearing 
with our colleagues on the Tactical Air and Land Forces 
Subcommittee, which I am also on. So, I guess I will wear two 
hats, along with Vicky Hartzler and others.
    The F-35 program is an example of a program that seems to 
be like it was designed so that it is too big to fail. From the 
program's inception, the Pentagon has struggled to resolve 
conflicts between the services regarding the Joint Strike 
Fighter's requirements, failed to protect the government's 
ownership of an intellectual property that was funded by 
taxpayer dollars, and failed to manage cost growth.
    Lockheed Martin has delivered over 458 aircraft to our 
military and to international partners participating in the 
program. We now enter the period where sustainment and 
readiness of the F-35 fleet are critical to our national 
security.
    One of the biggest concerns I have is whether the 
government has full access to the intellectual property 
required to sustain the F-35.
    I look forward to hearing from our witnesses in both panels 
about how we are addressing that issue. We are at risk of 
allowing one company to be in a monopolistic position to the 
government, which would enable it to charge a premium for 
sustainment contracts.
    My next concern is that we must build capacity within the 
depots and maintenance systems of our Armed Forces. Failing to 
do so will guarantee future sustainment challenges.
    When you talk to the pilots and maintainers in the field, 
they have serious questions about the Autonomous Logistics 
Information System, known as ALIS, that supports mission 
planning, supply chain management, and maintenance.
    Operators are spending countless hours inputting data that 
is supposed to be automated. From my perspective, it appears 
that the software architecture is outdated, and I look forward 
to discussing the way ahead.
    Within the data management part of the program, I am also 
deeply concerned about simulator support for the force. My 
understanding is that there are significant issues in replacing 
the servers that support these systems, which significantly 
reduces the ability of our pilots to train.
    Finally, supply chain management for F-35 is still a work 
in progress and has a long way to go. The prime contractor is 
responsible for maintaining--excuse me, managing replacement 
parts packages and government personnel onsite have limited to 
no visibility into the actual parts on hand.
    We are receiving consistent feedback from the field that 
these packages are not configured for the correct version of 
the aircraft that they were supposed to be supporting.
    Because the contractor is managing the supply chain instead 
of the military managing the supply chain, the program is 
incurring unnecessary costs to move parts between countries and 
to support our partner nations.
    So, I want to thank our witnesses for being here today and 
for their testimony, and I know you are working hard to address 
these shortcomings. The foundation of these problems were laid 
decades ago, in some cases.
    But we have to pick up the pace on sustainment as we get 
closer to full-rate production. At $406 billion for acquisition 
and more than $1 trillion estimated for sustainment, we cannot 
afford any further mismanagement of this program.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 59.]
    Mr. Garamendi. Thank you, Mr. Lamborn.
    I now turn to my colleague, chairman of the Tactical Air 
and Land Forces Subcommittee, Don Norcross.
    Your opening remarks, sir.

 STATEMENT OF HON. DONALD NORCROSS, A REPRESENTATIVE FROM NEW 
 JERSEY, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Norcross. Thank you, Chairman.
    I want to thank my good friends from California, Colorado, 
and Missouri for agreeing to this joint hearing with the 
Readiness and Tactical Air and Land Forces.
    I welcome, too, the distinguished panels of witnesses for 
taking the time to come before us. To meet our constitutional 
oversight responsibilities, we must hear from the Department 
program leaders as well as those independent agencies that help 
us evaluate program progress or shortfalls.
    We should also take the opportunity to get on the record 
the testimony from our two prime contractors responsible for 
production and sustainment of this critical capability for the 
warfighter and for the American taxpayer, who is funding the 
program.
    I agree with everything that has been said so far and note 
that the F-35 program is trying to recover from risky 
acquisition decisions made by past program leaders--previous 
decisions that resulted in unforeseen increases in funding for 
development [and] production to address the failing assumptions 
made for the high concurrency designed into this program.
    That bill for the past ``acceptable'' concurrency risk is 
now due and has resulted in the significant fiscal challenges 
facing us today. Block 3F configured aircraft delivered today 
are only somewhat combat mission capable.
    There are still material deficiencies that negatively 
impact the low-observability characteristics of this aircraft, 
and that is only a fifth-generation aircraft that can provide.
    And yet, as the system development and design phase of the 
program has officially ended, we now embark on the next upgrade 
known as Block 4, which is estimated to cost an additional $20 
billion in development and retrofit costs for both today's 
fielded aircraft and future production aircraft to achieve full 
combat capability.
    Today, we want to understand what fixes you are making to 
the struggling ALIS system, which we have heard from two of our 
colleagues so far.
    Where are we finding the qualifying alternate sources of 
supply resulting from Turkey's suspension from the program? And 
what strategy and execution plan to establish greater capacity, 
effectiveness, and insight with the prime contractor 
deficiencies with supply chain parts management and the 
concurring--that are currently plaguing the efficiency of the 
production line?
    Finally, I would like to learn from the Department what 
they are doing to establish common cost categories and metrics, 
and evaluating the true ownership cost of the aircraft, whether 
defined in terms of cost per flight hour or cost per tail year.
    I believe it is imperative for leaders to establish a 
Department-wide policy for guidance when we are comparing 
costs--apples-to-apples input between some of the legacy 
programs and the future generation aircraft.
    The Tactical Air and Land Subcommittee will continue to 
support the program, but we don't have unlimited resources, 
which seem to continually need this elusive term 
``affordability.''
    With that, I again look forward to the hearing and yield 
back to my chairman.
    [The prepared statement of Mr. Norcross can be found in the 
Appendix on page 61.]
    Mr. Garamendi. I thank you, Mr. Norcross.
    Mrs. Hartzler.

    STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
MISSOURI, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mrs. Hartzler. Thank you.
    As the chairman mentioned, this hearing continues the 
committee's ongoing oversight and continuing review of the F-35 
program.
    As members of this committee, we understand and recognize 
the importance of fifth-generation capability as well as the 
need to grow additional fifth-generation capacity in order to 
meet the objectives of the National Defense Strategy and 
maintain a credible deterrence posture.
    I was pleased to see the latest F-35 production contract 
award, the largest in the history of the Department of Defense, 
has resulted in significant lower unit recurring flyaway costs 
for the F-35 from $89.3 million per F-35A aircraft of the 
previous contract to $77.9 million for this contract award, 
representing a 12.8 percent decrease.
    According to the Joint Program Office, this $34 billion 
agreement will see the delivery of 478 F-35 aircraft, which 
will almost double the size of the current F-35 fleet by 2022.
    However, given the size, the scope, and complexity of the 
program [and] that the fleet size will nearly double over the 
next 2 years, this hearing provides a timely opportunity to 
update our members on the challenges currently facing the 
program going forward, to include what actions are being taken 
now to ensure long-term affordability and drive down 
sustainment costs.
    I want to briefly run through a few issues that I expect 
the witnesses to cover today. Regarding Turkey's recent 
suspension and ultimate removal from the program, I join 
Chairman Norcross in an interest in receiving an update on the 
current posture of the F-35 industrial base to include 
qualifying and ramping up alternative sources for the parts 
that were being produced in Turkey.
    I also expect the witnesses to update us on the acquisition 
plan, cost estimates, and a test strategy for the Block 4 
modernization program.
    I understand next year's budget request will be the first 
production year for Block 4 aircraft and I would like to know 
whether you are experiencing any challenges with the overall 
Block 4 development schedule and will these new aircraft result 
in higher unit costs.
    We were recently notified that the full-rate production 
decision has been delayed by over a year and I am interested in 
hearing what programmatic impacts this delay would have, if 
any, on the program's current acquisition strategy.
    Today's hearing is also a good time to update us on some of 
the outcomes from the initial operational testing [and] 
evaluation that is ongoing, specifically the challenges 
associated with developing the joint simulated environment 
capability which is needed to realistically test fifth-
generation capability.
    And, finally, I would appreciate the witnesses to the 
degree they can in an open hearing address how they are 
approaching cybersecurity concerns and testing, specifically as 
it relates to ALIS, which has been mentioned--the [Autonomic] 
Logistics Information System--and the overall integrity of the 
supply chain.
    So, I want to thank our witnesses for being with us today. 
I look forward to an open and candid discussion and, with that, 
thank you, Mr. Chairman.
    I yield back.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 63.]
    Mr. Garamendi. Thank you, Mrs. Hartzler.
    I would now like to welcome to the hearing our witnesses on 
the first panel: Honorable Ellen Lord, Under Secretary of 
Defense for Acquisition and Sustainment; Lieutenant General 
Eric Fick, Program Executive Officer for the F-35 Joint Program 
Office; Robert Behler, Director of Operational Testing and 
Evaluation at the Office of the Secretary of Defense; and Ms. 
Diana Maurer, Director of Defense Capabilities and Management 
at the Government Accountability Office [GAO].
    I am going to start with the Government Accountability and 
let us get an outline of what has happened. I know that the GAO 
has been on this issue for a long, long time--multiple reports 
over the last several years.
    So, Ms. Maurer, if you would care to start us off. All that 
is good and not so good.

 STATEMENT OF DIANA MAURER, DIRECTOR, DEFENSE CAPABILITIES AND 
       MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Maurer. We will give you the full picture.
    Thank you very much, Mr. Chairman.
    Mr. Garamendi. Thank you. Pull that microphone up close and 
be personal with it.
    Ms. Maurer. All right. Sure.
    Mr. Garamendi. Thank you.
    [Laughter.]
    Ms. Maurer. I am pleased to be here today to discuss GAO's 
findings and recommendations on F-35 sustainment.
    U.S. air power depends on the F-35, and when we talk to 
pilots and mechanics in the field, we hear good things that 
they have to say about the amazing capabilities of the 
aircraft.
    But the success of the F-35 ultimately depends on 
sustainment and for too many years sustainment has taken a back 
seat. While in recent years this has changed for the better, 
DOD [Department of Defense] has increased its attention and 
commitment to sustainment challenges.
    Let there be no doubt, the program is trying to dig itself 
out of a big hole. Many important plans, agreements, and 
details on how to supply and maintain the F-35 were not worked 
out before the Marines, Air Force, Navy, and international 
partners began using the aircraft.
    As a result, we have a very capable, very expensive system 
that is not flying nearly as often as planned. During the last 
fiscal year, F-35s were on average able to perform one of their 
many potential missions less than two-thirds of the time and 
all missions only about one-third of the time.
    These figures are far from the goals set by the Secretary 
of Defense and the services. Our work has identified several 
reasons for these outcomes.
    First, there are not enough spare parts to go around. As we 
reported earlier this year, F-35s cannot fly about 30 percent 
of the time due to supply issues.
    In addition, parts are breaking more often than expected, 
it is taking twice as long as planned to fix them, and the 
necessary depot repair capabilities won't be completed until 
2024.
    And then there is ALIS, the information system vital to the 
F-35's maintenance, logistics, and mission execution. If ALIS 
doesn't work, the F-35 doesn't work, and ALIS has been 
struggling for years.
    In addition, DOD's options for improving sustainment are 
constrained by the overall structure of the program. For 
example, contractors largely own the technical data, provide 
the spare parts, and manage the global logistics system.
    Now, to help with these challenges, my statement today 
discusses 21 recommendations we have made over the past few 
years and DOD by and large agrees and has started taking action 
to address most of them, and that is very encouraging.
    However, improving sustainment will not be quick and it 
will not be easy. It will require action by DOD, action by the 
contractors, continued robust congressional oversight, and full 
implementation of GAO's recommendations.
    Continued focus and action on sustainment is necessary to 
ensure the F-35 is able to meet our national security goals for 
many decades to come.
    Mr. Chairman, thank you for the opportunity to testify this 
morning and I look forward to your questions.
    [The prepared statement of Ms. Maurer can be found in the 
Appendix on page 65.]
    Mr. Garamendi. I want to thank you and your colleagues at 
the GAO for its work--your work--over almost two decades now on 
this program. We would do very well in our role of oversight to 
pay attention to the 21 recommendations that you have made.
    And I will now ask Ms. Lord for her review of those 21 
recommendations.
    Ms. Lord.

STATEMENT OF HON. ELLEN M. LORD, UNDER SECRETARY OF DEFENSE FOR 
ACQUISITION AND SUSTAINMENT, OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Lord. Good morning.
    Mr. Garamendi. Thank you.
    [Laughter.]
    Secretary Lord. Chairman Garamendi, Ranking Member Lamborn, 
and distinguished members of the Readiness Subcommittee, 
Chairman Norcross, Ranking Member Hartzler, and distinguished 
members of the Tactical Air and Land Forces Subcommittee, thank 
you for the opportunity to testify.
    I am pleased to join Robert Behler, Lieutenant General Eric 
Fick, Diana Maurer to discuss our continued efforts to develop, 
build, and sustain an affordable and ready F-35 air system.
    With more than 458 fielded aircraft operating from within 
the U.S. and abroad, our warfighters are beginning to 
experience the true game-changing capabilities the F-35 brings 
to bear as well as identifying challenges that need to be 
addressed.
    As Under Secretary, I have maintained a laser focus on 
driving down costs, improving quality, and increasing fleet 
readiness. The Department is actively transforming the F-35 
program to deliver the efficiencies, agility, and readiness 
outcomes we need in a time of strategic competition.
    I would like to briefly walk through how the F-35 
enterprise is working to dramatically improve F-35 sustainment 
outcomes by focusing on a subset of our actions to achieve the 
Department's goals of improving aircraft availability and 
reducing sustainment costs.
    I have submitted a more in-depth statement for the record.
    As the F-35 fleet continues to grow and the air system's 
capabilities are enhanced, it is crucial that we stay focused 
on improving fleet readiness to ensure the F-35's critical 
capabilities are available to the warfighter.
    I would like to thank Congress for their support in helping 
us maintain a balanced investment approach. With your help, the 
program continues to make steady progress in enhancing fleet 
readiness, but much work remains.
    My team has identified several success elements that we 
have documented in a comprehensive life cycle sustainment 
plan--we call it LCSP--that are required to drive fleet 
readiness improvements.
    For example, we are focussed on a number of efforts to 
accelerate supply chain improvements, to increase supplier 
capacity, decrease lead times for spares, and optimize spares 
available on the shelf.
    The Department is also accelerating depot component repair 
activations by 6 years to meet fleet component repair demands. 
Additionally, we are working to improve ALIS field-level 
functionality and responsiveness.
    ALIS is a key enabler to the platform's operational 
availability and, sadly, as presently constituted, ALIS is not 
delivering the capabilities the warfighter needs.
    The Department is progressing towards a future ALIS 
developed and sustained utilizing agile software development 
techniques designed to rapidly deliver flexible applications on 
a modern, secure architecture.
    I see a number of our industry partners demonstrating a 
high degree of confidence in developing the kinds of open 
architectures needed to support the warfighter.
    The problems with ALIS are ones we can and must solve. The 
F-35 enterprise recognizes that the U.S. services, the F-35 JPO 
[Joint Program Office], and industry must collaborate to reduce 
sustainment costs.
    I am personally overseeing an effort to understand the 
barriers preventing more rapid improvement to both readiness 
and affordability.
    The intent is for the F-35 program to uncover performance 
drivers and apply commercial best practices where appropriate 
to targeted interventions.
    The Department is using these insights to support 
accelerated implementation of key success elements in our LCSP. 
Specifically, we have identified that driving down support 
costs, both in terms of labor cost and labor demand, is the key 
lever in reducing overall F-35 sustainment costs because 
sustainment support accounts for over a third of all 
sustainment costs.
    Additionally, as we learn more about the readiness barriers 
and the cost drivers, we are using this knowledge to help 
inform our analysis of Lockheed's 5-year fixed-price 
performance-based logistics, or PBL, proposal.
    We are in the early stages of working in conjunction with 
our industry partners to analytically understand if, when, and 
to what scope an F-35 PBL contract could be awarded.
    Our goal is to ensure that any such contract meets the 
readiness and affordability goals important to the F-35 
warfighter and in the best interest of the American taxpayer.
    In conclusion, the Department continues to demonstrate our 
commitment to provide an affordable, lethal, supportable, and 
survivable F-35 air system.
    While the Department is grateful to Congress for passing a 
2-year budget agreement that provides budgetary certainty the 
Department needs to implement the National Defense Strategy, I 
want to reiterate how regrettable it is that we are, again, 
under a continuing resolution. CRs cause great damage to 
military readiness and disrupt our ability to modernize our 
forces.
    I strongly urge Congress to pass a defense appropriation 
and authorization bill now so what we can move forward with the 
many important programs needed to ensure our readiness and 
deter our adversaries.
    I want to thank both subcommittees for your longstanding 
bipartisan support and I look forward to your questions.
    [The prepared statement of Secretary Lord can be found in 
the Appendix on page 88.]
    Mr. Garamendi. Thank you very much, Ms. Lord.
    Yes, we are going to go at those issues that you raised. 
That is the subject of the hearing. We will get at it.
    Lieutenant General Fick.

   STATEMENT OF LT GEN ERIC T. FICK, USAF, PROGRAM EXECUTIVE 
        OFFICER, F-35 LIGHTNING II JOINT PROGRAM OFFICE

    General Fick. Chairman Garamendi, Chairman Norcross, 
Ranking Members Lamborn and Hartzler, and distinguished members 
of the Readiness and Tactical Air and Land Forces 
Subcommittees, thank you for the opportunity to be here today.
    I am pleased to have this opportunity to join Under 
Secretary Lord, Director Behler, and Director Maurer to discuss 
our continued and collective efforts to develop, deliver, and 
sustain the F-35 air system with the capabilities our 
warfighters demand at a price our taxpayers can afford.
    Since becoming the F-35 PEO [Program Executive Officer] 
this past summer, I have been both impressed by and proud of 
the progress that my joint and international team has made, 
together with our industry partners, in modernizing and 
sustaining the air system now deployed in combat operations 
around the world.
    Ranking Member Hartzler noted our recent production 
contract award, but production success, of course, is nothing 
if not followed by progress in the area of sustainment.
    As our operational fleet continues to grow, we are 
committed to maturing our global sustainment solution to 
increase aircraft availability while simultaneously driving 
down operations and support costs.
    As you well know, if we are missing parts and we can't get 
our jets airborne, the ability to deliver combat effects on 
this aircraft are significantly diminished.
    Getting parts to the field when they are needed, 
expeditiously repairing broken parts, and improving the 
reliability and the maintainability of the aircraft are all 
critical items we need to achieve to get to consistently higher 
mission capability rates while simultaneously driving down 
sustainment costs.
    While I am both personally and professionally unsatisfied 
with where we are today, I will offer that we are seeing 
measured progress on both fronts. Actions undertaken by the F-
35 enterprise and by our warfighting maintainers in 2019 
increased the mission capability [MC] rates of our U.S. 
operational fleet from 55 percent in October of 2018 to 73 
percent in September of 2019, even as our fleet grew by an 
additional 91 aircraft. That is the MC rate of a single 
deployed unit.
    In this past summer, our four deployed Air Force units from 
the 388th Fighter Wing at Hill led the first F-35A combat 
employment, encompassing 1,319 sorties for 7,248 flight hours.
    I am pleased to share that the 388th saw their mission 
capability rates increase from 72 percent in April to 92 
percent by the time they returned in October. We know what 
success looks like and we must make that the norm for the 
program, not the exception.
    Just as in aircraft availability, we are also making steady 
measured progress in bringing down our sustainment and 
operating costs for the F-35.
    While much work remains ahead of us, this program is 
demonstrating a downward glide slope in this area. In 2019 
alone, our negotiating team drove a 9 percent reduction in 
prime contractor sustainment costs for the U.S. Air Force, 
directly reducing our overall cost per flying hour.
    I am committed to aggressively continuing on this path 
across all services and partners and to sharing our progress 
with you as we do it.
    My sustainment team and I fully understand that there is no 
silver bullet in this area and our coordinated and data-
informed effort across a wide spectrum of work is required.
    For the F-35 enterprise, this coordinated effort is 
captured in the F-35 life cycle sustainment plan that Ms. Lord 
mentioned, which is the most execution-friendly sustainment 
plan I have ever seen.
    As a result of the initiatives defined in this plan, as 
well as the combined efforts of the Joint Program Office, the 
U.S. services, and industry in executing it, we are seeing 
meaningful evidence that our targeted initiatives across nine 
individual lines of effort are improving aircraft availability 
while simultaneously driving down O&S [operating and support] 
costs.
    We are reducing to aggressively accelerate our software 
modernization cycles, our supply chain deliveries, and our 
depot repair capabilities, and to prioritize reliability and 
maintainability projects so that we have the right return on 
our investment for our warfighters.
    The life cycle sustainment plan also encompasses our path 
forward for the F-35 Autonomic Logistics Information System, or 
ALIS, with which you are all familiar.
    While we have seen recent improvements in ALIS 
functionality and responsiveness, significant additional work 
is required, work that can't be done in old and outdated ways. 
We must change the way we deliver ALIS capabilities and we must 
do so now.
    In closing, I once again observe that with more than 460 
aircraft fielded around the world and delivering combat 
effects, the F-35 is more affordable and lethal than ever 
before.
    On behalf of the men and women of the F-35 enterprise, you 
have my commitment to continue to execute this program with the 
due diligence, engineering excellence, and professional 
impatience required so that we may develop, deliver, and 
sustain this fifth-generation air system the warfighter 
requires on a timeline that makes a difference.
    With your help we will continue to bring this game-changing 
capability to our U.S. and international warfighting partners 
for decades to come.
    Thank you again for this opportunity and I look forward to 
your questions.
    [The prepared statement of General Fick can be found in the 
Appendix on page 100.]
    Mr. Garamendi. I thank you, General.
    Mr. Behler.

STATEMENT OF HON. ROBERT F. BEHLER, DIRECTOR, OPERATIONAL TEST 
       AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Behler. Chairman Garamendi, Chairman Norcross, Ranking 
Member Lamborn, Ranking Member Hartzler, and distinguished 
members of two committees, thank you very much for inviting me 
to join my colleagues today to discuss the status of the F-35 
program.
    As you know, DOT&E [Director of Operational Test and 
Evaluation] plays a vital role in the acquisition and fielding 
process. I have submitted a more detailed statement for the 
record. But this morning I would like to give you a quick 
overview of where the F-35 operational testing stands today.
    DOT&E, the JSF [Joint Strike Fighter] Operational Test 
Team, or the JOTT, the F-35 Program Office, the service 
operational test agencies have been collaborating closely to 
evaluate the F-35's lethality, survivability, and readiness, 
and we have been making good progress.
    So far, the JOTT has conducted 91 percent of the open-air 
test missions, actual weapons employment, cybersecurity 
testing, deployments, and comparison testing with fourth-
generation fighters including the congressionally directed 
comparison test of the F-35A and the A-10C.
    IOT&E [initial operational test and evaluation] events have 
assessed the F-35 across a variety of offensive and defensive 
roles. Based on the data collected so far, operational 
suitability of the F-35 fleet remains below service 
expectations.
    In particular, no F-35 variant meets the specified 
reliability or maintainability metrics. In short, all 
variants--the aircraft are breaking more often and taking 
longer to fix.
    However, there are several suitability metrics that are 
showing signs of improvement this year. There are two phases of 
formal IOT&E remaining. The first is electronic warfare testing 
against robust surface-to-air threats at the Point Mugu sea 
range.
    The other is testing against a dense, modern, surface and 
air threats in the Joint Simulation Environment [JSE] at the 
Naval Air Station Patuxent River.
    I will approve the start of these tests when the necessary 
test infrastructure is ready. The Joint Simulation Environment 
is essential. The JSE is a man-in-the-loop synthetic 
environment that uses actual aircraft software.
    It is designed to provide a scalable high-fidelity 
operationally realistic simulation. I would like to emphasize 
that the JSE will be the only venue available other than actual 
combat against peer adversaries to adequately evaluate the F-35 
due to the inherent limitations of open-air testing.
    These limitations do not permit a full and adequate test of 
the aircraft against the required types and density of modern 
threat systems including weapons, aircraft, and electronic 
warfare that are currently fielded by our near-peer 
adversaries.
    Integrating the F-35 into the JSE is a very complex 
challenge but is required to complete IOT&E which will lead to 
my final IOT&E report.
    The current schedule indicates that the JSE will not be 
ready to start final phase of operational testing until July of 
next year.
    As you know, most of the IOT&E results are classified. 
However, I would be happy to provide observations to you and 
your staff in the appropriate venue.
    Again, thank you very much for this opportunity to be here 
and I look forward to your questions.
    [The prepared statement of Mr. Behler can be found in the 
Appendix on page 115.]
    Mr. Garamendi. Mr. Behler, thank you. General Fick and Ms. 
Lord, thank you very much for your testimony.
    We have a lot of questioners and each questioner has a lot 
of questions. So, we are going to try to move expeditiously as 
we can.
    I will attempt to limit myself to 5 minutes as will Mr. 
Lamborn, Mrs. Hartzler, and Mr. Norcross. So, we will have a go 
at it.
    Spare parts, ALIS, contractor control, depots, and by the 
way, who runs this program? Joint Program Office or the various 
services themselves?
    Fundamental questions we need to answer. Let us start with 
ALIS. What are we going to do about it?
    Ms. Lord and Mr. Fick--General Fick--what are we going to 
do here? Are we going to rebuild this entire system? Planes 
don't run with ALIS not working properly. What are we going to 
do?
    Secretary Lord. ALIS is being dealt with under the 
framework of our life cycle sustainment plan. One of the things 
we know we need to do in terms of having adequate sustainment, 
reaching cost per flight hour, getting the aircraft 
availability that we need, is to tackle discrete problems. ALIS 
is one of them.
    So, what we have done in the plan is we have actual 
assignments around ALIS. We have specific individuals 
responsible for it and dates that they need to meet. The core 
of what is being done is to rearchitect ALIS. As we continue to 
patch ALIS as it exists today--and General Fick has a lot of 
specifics around that--we are making sure that we are 
transitioning to Agile and DevOps as we have demonstrated the 
capability to do through the Air Force's Mad Hatter efforts at 
Kessel Run up in Boston.
    What we are doing is rearchitecting ALIS to make sure it 
meets the needs of the warfighter while making good use of 
taxpayer dollar and we are working on a detailed plan right now 
as to when that capability will be delivered.
    But we are taking multiple lines of effort that exist today 
with ALIS and we are coalescing those in 2020 to one effort.
    Mr. Garamendi. We would like for the record what those 
multiple lines are----
    Secretary Lord. Absolutely.
    Mr. Garamendi [continuing]. In the detail.
    Secretary Lord. And for the LCSP or for ALIS?
    Mr. Garamendi. Both. But right now, for ALIS.
    Secretary Lord. Absolutely. We will certainly get those to 
you. Absolutely.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Very good.
    General Fick, do you want to add?
    General Fick. If I could just pile on a little bit. The 
four individual lines of effort that we are--that have 
historically been running on ALIS, or what I would characterize 
as ALIS classic, which is ALIS that was developed as the 
program evolved, the version in the field right now is ALIS 
3.1.1.1.
    We are in the process of fielding ALIS 3.5 as we speak. 
That will bring about 300 stability fixes to that baseline 
functionality to allow it to be a better system for the users. 
That is the legacy system.
    At the same time, we have been working on what we called 
ALIS Next, which was an exploration of new architectures. We 
have been working on what is called the Mad Hatter initiative, 
which is an Agile DevOps-focused look at what we do.
    Mr. Garamendi. So, excuse me for interrupting but I will. 
The--so we are looking at the--the fundamental architecture is 
one of my--Mrs. Hartzler said earlier is 20 years old. So, you 
are looking at a new architecture, in other--a new foundation, 
a new system, Mad Hatter or whatever it is.
    When?
    General Fick. So, we are working that transition literally 
as we speak. We have heavily leveraged Dr. Jeff Boleng, who 
works for Ms. Lord as the OSD [Office of the Secretary of 
Defense] software expert. We have leveraged the work of the 
Boston Consulting Group to terminate further efforts----
    Mr. Garamendi. ALIS is controlled by Lockheed Martin. Are 
they working with you? Against you? What is the deal?
    General Fick. They are working with us. The fourth line of 
effort outside of Mad Hatter was IRAD [internal research and 
development] that Lockheed is doing, and so what we are working 
to do with Jeff Boleng's help is to coalesce those efforts into 
a single new version of ALIS marching forward that leverages an 
underlying data architecture that is expandable with the 
expanding fleet in ways that the current ALIS is not.
    Mr. Garamendi. And what is your deadline to achieve this?
    General Fick. We believe that we will be able to make 
significant progress by next fall, by September of 2020. But we 
are starting movement in that direction right now.
    Mr. Garamendi. And definition for significant?
    General Fick. We hope to be able to turn off select SOUs--
squadron operational units--by September of 2020.
    Mr. Garamendi. And what resources do you need to accomplish 
this, or can you pry it out of Lockheed?
    General Fick. So, we will be looking to work with Lockheed 
with the--with the group from Kessel Run, the Mad Hatter team, 
as well as the team at Hill Air Force Base, the 309th software 
sustainment group, to do that work.
    My intent is to do it within existing program funds. But we 
have not finished our assessment whether additional funds will 
be needed at this time.
    Secretary Lord. If I may just add to that. The Air Force 
has a high level of competency in software development and we 
are trying to leverage what we have, particularly at Hill Air 
Force Base and Warner-Robins, along with Lockheed's capability, 
to make sure we take the Air Force's experience and success and 
leverage that on the F-35.
    In fact, General Goldfein has specifically asked General 
Bunch, who is now Commander, Air Force Materiel Command out at 
Wright-Patt and who I spoke to this morning about this very 
task, to make sure that he is leveraging all the Air Force has 
to bear.
    I think we need to move forward quickly, and we need to 
make sure we understand exactly what the maintainers are 
experiencing, and we need the Air Force's help to do this.
    So, this will be a collaboration between the government and 
Lockheed Martin, and Lockheed Martin--I have spoken directly 
with Marillyn Hewson about this--is going to need to leverage 
their software expertise and their best and brightest on this.
    Mr. Garamendi. A final question from me and then I will 
turn to my colleagues, who will carry on.
    Who has the proprietary information? Who has the rights to 
the existing ALIS software and architecture?
    Secretary Lord. Right now, that is between Lockheed and the 
government, and one of the key elements of coming up with a new 
ALIS architecture and software--I am sorry, data standards and 
all of the other parts that would make a very good system is 
understanding the entire data set as it exists today, what all 
the algorithms are and we are still in the process of going 
through that with Lockheed Martin and we are still having 
discussions over various parts of that, but understanding where 
all of the intellectual property is and making sure the 
government has access to what it has paid for is a key portion 
of rearchitecting ALIS.
    Mr. Garamendi. Thank you. Much more to be said about that.
    Mr. Lamborn, your turn.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing and I want to follow up on what you just brought up 
about intellectual property.
    Ms. Lord and General Fick, I will ask you this question. 
Can you give us a little more detail--a little more 
granularity, if you will--on how we--where we are at now with 
resolving these intellectual property issues with the prime 
contractor and do you still have major--any major concerns?
    General Fick. So, we still do have concerns. There still 
are roadblocks as we go to execute everything from as simple as 
documents that get uploaded into a system and U.S. Government 
documents that can get uploaded into a system and come back 
with Lockheed Martin proprietary markings on them.
    That is a frustrating occurrence, but it is not one that 
keeps us from doing work. What we are working to do is to 
figure out where the places in which those proprietary or 
intellectual property assertions actually keep us from doing 
the kind of work that we intend to do.
    One of those cases, to Mr. Behler's point, is within the 
JSE. So, our initial integration of the ``F-35 in a Box'' into 
the JSE was held up by a dispute between the government and 
Lockheed over the intellectual property contained within nine 
individual algorithms within ``F-35 in a Box.''
    That slowed our progress in getting started and slowed our 
early progress once we had begun. But that is one specific case 
in which we identified----
    Mr. Lamborn. And has that one been resolved?
    General Fick. So what happened in the case of ``F-35 in a 
Box'' is in order to get on contract, in order to start moving 
forward, we had to sign up to accept less than government 
purpose rights to be able to move but reserved the right to 
challenge that intellectual property assertion.
    So, we brought in DCAA [Defense Contract Audit Agency]. 
They dug through the paperwork, working closely with Lockheed 
Martin to determine whether Lockheed could prove through their 
records that those software elements had been exclusively 
developed at contractor expense.
    DCAA could not come to a conclusion based upon the data 
they were presented and that contracting officer's final 
determination, or COFD, was that they could not prove that 
those elements had been developed exclusively at their expense 
and, therefore, should be government purpose rights.
    Lockheed Martin has protested that finding by the 
contracting officer and elevated that to the Armed Services 
Board of Contract Appeals for final adjudication and that issue 
is still being resolved.
    So, basically, we are getting to a place where we don't 
need all the data but the data that we need, it is important 
that we pursue it. And so, this is the way in which we are 
looking at what do we need, okay, let us go get it.
    Mr. Lamborn. Thank you.
    Ms. Lord, do you have anything to add to that?
    Secretary Lord. I think one of the challenges we have is 
the fact that a lot of the ALIS data and functionality works 
back through Lockheed Martin computers.
    So, what we need to do with our newly architected ALIS is 
to have that in a government cloud and accessible. So this 
deconflicting of Lockheed data and the government data will 
become much clearer.
    We also have fundamental standards that we need to set down 
such as data standards, so it is very, very clear.
    Mr. Lamborn. Okay. Thank you.
    And Mr. Behler, you mentioned JSE and you said that you 
think it is going to be operational for testing in the last 
quarter of this fiscal year.
    Is it on track to meet this requirement?
    Mr. Behler. Actually, what I said, it would be ready for 
the physical year next year.
    Mr. Lamborn. Oh, okay.
    Mr. Behler. So, it would be July of 2020 when we think it 
will be ready to start operational testing.
    Mr. Lamborn. And that is the last quarter of this fiscal 
year, but go ahead. Go ahead.
    [Laughter.]
    Mr. Behler. You are absolutely correct, sir.
    [Laughter.]
    Mr. Behler. So----
    Mr. Lamborn. According to staff.
    Mr. Behler. Yes. So, the question was why is it required?
    Mr. Lamborn. Is it on track to actually be operational by 
that time?
    Mr. Behler. Well, that is what the master schedule says, 
sir, and I guess I am not the program manager and I guess I 
would ask the program manager if he feels comfortable.
    We have been--we have been closely coordinating with the 
program office and NAVAIR [Naval Air Systems Command] out at 
Pax River to find out when this thing is going to be ready. 
There is enormous challenges and there is a lot of unknown 
unknowns still out there. But I will let General Fick kind of 
give you what he believes----
    Mr. Lamborn. Yes. Thank you.
    General Fick.
    General Fick. Sir, so I do believe that the JSE 
development, the ``F-35 in a Box'' integration into JSE is on 
track. The team, led by my tech director behind me, has spent 
an extraordinary amount of time going through and developing a 
very detailed line-by-line schedule that looks at that 
integration.
    And to put it in context, we are not only integrating the 
``F-35 in a Box'' into this environment. We are also 
integrating all of the blue and red threat vehicles, ground 
systems, airborne systems and weapons, electronic warfare, and 
all of the things that you need to bring a full 8-on-8 or 
greater scenario to life in a synthetic environment.
    So, to Mr. Behler's earlier point, this is a--it is a very 
challenging enterprise that we are trying to actually come as 
close to combat as we can come without actually putting iron in 
the sky.
    Mr. Lamborn. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    Now I will turn to Chairman Norcross.
    Mr. Norcross. Thank you.
    Ms. Lord, in my opening remarks we talked about a defined 
standardization cost categories and metrics for understanding 
both the costs per flight hour and costs per tail per year.
    We are talking about the F-35 today in particular but this 
committee deals with many platforms and systems. When we start 
to deal with legacy issues versus fifth-gen and other systems, 
apples to apples, the metrics that we are using seem to move. 
We use certain metrics for one system and different metrics for 
another. Some of them cross-pollinate.
    Talk to me about this issue and how you deal with it and 
other systems and platforms, but more particular, how can we 
standardize so that when we are talking about this system's 
flight per hour, per cost, is the same measurement as we are 
doing for other platforms, whether it is the F-18 or any other.
    Secretary Lord. We found when we embarked on the 80 percent 
mission capable journey that Secretary Mattis at the time had 
set out for us that we were using the same words with different 
definitions across the services and even between programs.
    So, words matter, and we are standardizing how we measure 
things. When we talk about mission capability it is really the 
total up-time as safe to fly and capable of at least one tasked 
mission over the total possess time. So those are aircraft that 
are with the unit and can be flown.
    What we found----
    Mr. Norcross. Let me just interject a question right there, 
because we mentioned about the availability rate of the F-35s. 
They had two different ratings--one as a single mission capable 
and then full mission capable. So that goes directly to your 
question.
    Secretary Lord. Yes. So, in terms of air vehicle 
availability rate, that is defined as total up-time capable of 
safe to fly plus at least one mission over total active time, 
which is possessed and non-possessed, which translates to those 
aircraft that are out of--out of reporting. They could be in a 
depot, for instance.
    So that is the big difference between AVA [air vehicle 
availability] and MC. It is confusing and I think we need to 
talk in a little bit clearer terms.
    Mr. Norcross. But that is just part of it. It is also 
Lockheed and others who are looking at their sustainment or 
their O&S costs under one guise and we are talking about 
another, and the reason I bring that up will go to my next 
question.
    But as we make these decisions, you know, we don't have an 
unlimited pocketbook to pay for these things and we are trying 
to make these decisions when they come out.
    Secretary Lord. Understood.
    Mr. Norcross. We need to have standards so we can make 
accurate decisions on the cost.
    Secretary Lord. And if I may make one comment.
    We found that we had apples to oranges, as you were saying, 
types of comparisons. That is one reason that we hired the 
Boston Consulting Group to look at all the costs in terms of 
cost per flight hour [CPFH] so that we could understand all the 
drivers, whether it was direct labor, indirect labor, whether 
it was repair of repairables, whether it was spares, and on and 
on and on.
    And as we peel back to get to that $25,000 per hour goal in 
2025, we found that we had about $3,000 per flight hour that we 
couldn't clearly trace back through Lockheed Martin as to the 
origin of those costs.
    So, we are working closely with Lockheed Martin to 
understand it and it is the fundamental basis of some of this 
confusion we have.
    So before we get on the path so that we make sure that we 
are going to achieve that goal with certain steps, we all need 
to have the same data set, the same fact basis so that we can 
define our terms, all have the same definition, and then have a 
plan that we all can trace because up to this point that has 
been a huge discovery process.
    Mr. Norcross. Absolutely. Again, just the one issue we saw 
the F-35, the CPFH, was $44,000 an hour versus the F-18, 
$25,000.
    My point is everybody is making decisions hearing these 
numbers and if we are not comparing one to the other----
    Secretary Lord. Exactly. Whether you account for fuel, 
whether you account for government labor, on and on and on.
    Mr. Norcross. We have to standardize this, and General, 
Turkey suspension from the program. We don't expect them to 
come back. I would like to say that is permanent, but we have 
some meetings taking place today that--who knows? They had Lot 
12. We were going to receive how many? Was it 24 aircraft in 
those lots?
    General Fick. It is 24.
    Mr. Norcross. Let us talk about the replacement parts, 
where we are with those and some of the challenges, and then 
what is going to happen to those 24.
    General Fick. Okay. Sir, so there were between Lockheed 
Martin and Pratt & Whitney 1,005 parts that were single or dual 
sourced into Turkey and so we began just over a year ago and 
very quietly but deliberately taking actions to establish 
alternative sources for all of those parts.
    Lockheed and Pratt have been making spectacular progress 
against that goal, targeting the end of March of 2020 as a time 
at which we will have alternative sources stood up for all of 
them.
    We are not quite there yet so we have, on the airframe 
side, about 11 components that still we have yet to fully 
mitigate to be able to be at full reproduction on those parts 
by the end of March, and on the engines there is, I believe, 
one integrally bladed rotors, IBRs.
    Mr. Norcross. Just a quick followup. For the record, Turkey 
is still supplying their parts as of today.
    General Fick. Yes.
    Mr. Norcross. Will follow up more on that, but I want to 
give my colleagues a chance.
    General Fick. Sir.
    Mr. Norcross. Thank you.
    Is it a surprise that we are still getting those parts and 
how long do you expect, or will we continue to buy those as you 
are setting up an alternative source?
    General Fick. So, we are working closely with Ms. Lord and 
with Lockheed and Pratt to figure out what the most expeditious 
way is to wean ourself from those parts.
    There are a lot of orders still out and parts still in 
production that will be delivered presently after the end of 
March.
    But what we did not do as we worked to stand up those 
alternative sources over the course of the last year was to 
actually dual produce those parts. So, we didn't go and over-
produce parts that we had already bought against those Turkish 
providers.
    So what we are working on right now is to figure out what 
the right laydown is of work orders that might be terminated 
and work in progress lost or if we can extend the acceptance 
region to accept those parts and not have to buy duals. That is 
what we are working closely with----
    Mr. Norcross. But as of today, the suspension of Turkey is 
not impacting our parts in any delays so far?
    General Fick. Correct.
    Secretary Lord. Not at all. In fact, they have been very, 
very good suppliers.
    Mr. Norcross. Thank you.
    Mr. Garamendi. Mr. Norcross, thank you for getting into 
that. A lot of this is blowing in the wind to today. We will 
see what comes of all of it with the meeting that is taking 
place as well as the congressional point of view, which may 
differ from what the White House point of view is at the end of 
this day. We will see where we are. Very, very important 
issues.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you.
    Just to keep along the same line of questioning about 
Turkey, just wanted to follow up. What impact, Ms. Lord, is a 
yearlong continued resolution? What impact would that have on 
your trying to find new sources and bring them up to production 
for these parts?
    Secretary Lord. In terms of a CR, it hurts the overall 
program. But I am not aware of any direct impact on resourcing 
the parts because Lockheed has--and Pratt have ongoing money to 
do that. The real challenge is really how we deal with that 
work in progress that General Fick was talking about and how we 
make sure we don't waste any of the money already spent on 
partially built parts.
    Mrs. Hartzler. Very good. Thank you.
    I want to shift to cybersecurity, General Fick and Dr. 
Behler. As I mentioned in my opening remarks, cybersecurity and 
associated cybersecurity testing of the platform needs to be a 
high priority.
    So, General Fick, could you please outline for us what 
actions you are taking to ensure the integrity and the security 
of the F-35 supply chain to include ALIS--[Autonomic] Logistics 
Information System?
    And then, Dr. Behler, could you please provide us with your 
assessment of the program's test strategy for cybersecurity?
    So General Fick.
    General Fick. Ma'am, so as we look across the program at 
all of the elements of the air system from the air vehicle 
through to ALIS, the training systems and the joint 
reprogramming environment, we work to make sure that those 
development efforts are all fully compliant with the RMF [Risk 
Management Framework] JSIG [Joint Special Access Program 
Implementation Guide] rules associated with the cybersecurity 
performance of the system.
    So, our development work, our fielding work, is all 
intended to be full up RMF compliant as we do that work. We do 
work very closely--our development test team works very closely 
with the JOTT under Mr. Behler's cognizance to do dedicated 
cyber testing, to include penetration testing over and above 
the RMF JSIG test work--development work.
    Mrs. Hartzler. Thank you.
    Dr. Behler.
    Mr. Behler. About the--what we have left in IOT&E, one big 
portion of that is cyber testing to complete it on the aircraft 
and on ALIS 3.5. It is very challenging to do it on the 
aircraft because if we do it on the aircraft, we got to be sure 
that we can take everything out that we thought--you know, that 
we put in there.
    Right now, we are not sure we can do that. We wouldn't want 
to put an airplane in the air. We are probably going to do it 
in an anechoic chamber. You know, we can, you know, do all the 
stuff we want to do--you know, all the techniques we want to do 
using RF [radio frequency] signals and all that sort of stuff.
    I am glad you asked that question because I am biased a 
little bit about cyber and software because before coming here, 
I spent 6 years at Carnegie Mellon Software Engineering 
Institute and that is all I thought about was cybersecurity.
    And if I look at our weapons system today, you know, we 
have a very good acquisition process to buy hardware and our 
budgets are based on hardware. But it is really software that 
makes a difference.
    Every weapons system we have today is all about software. 
It is defined by software--not enabled but defined. Without 
software, boats don't leave the pier, airplanes don't fly, et 
cetera.
    We need to do better in cyber testing, and this is not 
putting more money into the problem. This is about intellect. 
We need to get the A Team on the DOD side to help us do 
cybersecurity.
    But as we--for this particular program we are going to do 
much of what General Fick said about penetration testing and 
adversarial assessment.
    But I will caveat this saying that we do not have all the 
tools that the adversary has to do the adversarial assessments. 
That is where the intellect comes in. We need to do better.
    Mrs. Hartzler. On a scale of 1 to 10 with 10 being the 
highest threat, the planes that are flying right now, where 
would you put us at--the cybersecurity of our current operating 
planes? Or maybe you want to answer it in----
    Mr. Behler. Well, I think that is a very difficult question 
to ask. You know, it is----
    Mrs. Hartzler. If you are still testing----
    Mr. Behler. We are still testing, and we need to continue 
the testing. Every day we find another vulnerability and I will 
also say this is a very complex program both in ALIS and the 
aircraft. Millions of lines of software code.
    The more code you have, the more complex. The more complex, 
the more vulnerabilities. We need to figure out a better way to 
write programs for our weapons systems, to write less software 
rather than more software.
    Mrs. Hartzler. Okay.
    General Fick.
    General Fick. Ma'am, I will add, as we talk about--
specifically about ALIS and about moving to modern code-based 
lines and modern code architectures, one of the fantastic steps 
that the Air Force did in terms of moving ahead with their Mad 
Hatter and Kessel Run team is they are changing the way they 
think about accreditation and certification of software and 
they are making it so that it is designed and not patched on.
    They are exploring new ways to have--to basically accredit 
the development environment so that software that is developed 
within that environment comes out cyber secure and that is not 
something you think about after you have actually put the 
software elements in place.
    So, to Mr. Behler's point, bringing the right minds to 
think about it from a modern software construct perspective 
makes a lot of difference.
    Mrs. Hartzler. It makes a lot of sense. Final comment?
    Mr. Behler. If I could just add one very small part. You 
know, if we look at what we are able to do today in software 
testing, we are in the lower left-hand corner doing our work. 
The adversary is in the upper right-hand corner. It is the 
junior varsity playing the NFL and we got to do better.
    Mrs. Hartzler. On that positive note, I yield back.
    Thank you.
    Mr. Garamendi. I want to thank our four colleagues for 
raising some critical issues with regard to the software. This 
committee--we really are supposed to be out of this room at 
12:30 so it can be swept for security, and guess what the next 
committee hearing is?
    It is on the subject of software, G5, or 5G, rather, and we 
are going to go right back into it with the next committee 
hearing. Maybe we can all stick around and learn something.
    Mr. Courtney, you are next.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you to the 
witnesses that are here today.
    When the F-35 decision was made to go to single engine, one 
of the biggest driving factors was the Navy's adamant 
testimony. CNO [Chief of Naval Operations] Roughead pointed out 
that having a dual engine system and trying to find the space 
on carriers and amphibious ships would be almost impossible.
    So I would like to focus, Lieutenant General, just for a 
minute on the afloat spare package issue, which represents one 
of the four types of parts packages for supporting the F-35 in 
different environments.
    It is unique, however, in its space and maintainer 
limitations given that the package must provide the necessary 
parts to sustain F-35s on a ship while competing for space with 
all the other materials a carrier or amphibious vessel must 
carry while on deployment.
    So I am going to ask two questions and then let you run 
with it. In working with the Navy to develop the requirements 
for the afloat spares package, what kind of obstacles either 
from a fiscal or practical standpoint have you encountered and 
what adjustments have been made?
    And secondly, what has the program learned from early 
deployment such as the USS Essex and how do you anticipate 
challenges will evolve as the B and C variant are increasingly 
embarked on carriers and amphibious vessels? Are there specific 
parts or components such as the stealth canopy that present 
particular challenges to the afloat environment?
    General Fick. Sir, thank you for your question. Very 
insightful and very meaningful.
    As we look at the afloat spares package, much like the 
deployable spares package that goes with land-based units that 
go into combat, what is important is that you marry up that 
package with the pedigree of the aircraft that you deploy 
forward.
    As we look at early deployments of As, Bs, and Cs, we, in 
some cases, had a wide mix of aircraft from different LRIPs--
low-rate initial production lots--which means that in some ways 
you may end up with a deployed or an afloat spares package that 
has parts for a lot that may or may not actually be in your 
squadron anymore.
    So, the notion that you can have an afloat spares package 
that you buy once and you only check when you buy it and you 
never look at it again, we need to throw that notion out the 
window.
    My team is working very close with Dan Frye, my product 
support manager right behind me, to do reviews on the DSPs 
[deployment spares packages] and ASPs [afloat spares packages] 
on no less than an annual basis but also in terms of as they 
prepare for spin-ups, for deployments, to look at the kits to 
make sure that the kits onboard the ship reflect the 
configuration of the aircraft that are brought onboard. It is 
absolutely essential to making this work.
    Relative to problem parts, you mentioned the canopy. Right 
now, the canopy is our current top mission capability rate 
degrader. From over the course of the last 6 months, I think it 
has averaged about 5 percent of our NMCS--non-mission capable 
for spares--as associated with the canopy.
    I wouldn't necessarily characterize that as a B model or a 
C model issue as much as I would characterize it as a fleet 
issue. In fact, the Bs particularly have seen fewer canopy 
issues than the A models have thus far.
    Mr. Courtney. When you have deployments on the Essex, I 
mean, any sort of early feedback?
    General Fick. So just reinforcing your point, sir, that 
making sure that the ASP matches the aircraft that are on board 
is critical. There may be one or two others.
    One of the things that we have noticed as we integrate this 
air system into the supporting infrastructure both on land and 
at sea is that we have got to get the comms right.
    And so, in a couple of cases, as we have deployed aboard 
these amphibious craft we have noticed that data, for instance, 
that ALIS is attempting to transmit off board is transmitting 
much, much slower than we would otherwise have thought it 
would.
    What has happened in both cases so far on two previous 
deployments has been that router switch settings and basic 
network configuration issues prevented the transmittal of data 
at appropriate rates to allow us to operate the aircraft in the 
sense that we need to.
    So, we need to do better at helping those who we are 
boarding ALIS with to actually understand what those settings 
need to be, understand what those configurations need to be.
    So it is not a matter of trying to invent how we integrate 
ALIS into a ship each time. It is a matter of just plugging it 
in and going.
    Mr. Garamendi. Thank you, Mr. Courtney.
    It is interesting we keep coming back to ALIS.
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Garamendi, and my son, 
Hunter, sends you greetings. And South Carolina--and I thank 
all of you for being here--but South Carolina is grateful. F-
35s have been warmly welcome at Marine Corps Air Station 
Beaufort and we would like to welcome F-35s to the Joint Air 
Base McEntire at Eastover, South Carolina. Colonel Ghandi would 
be very happy to be right on the flight line to wave you in, 
and we would really appreciate the service.
    And Secretary Lord, Fleet Readiness Center [FRC] East is 
the largest industrial depot that generates combat air power 
for both the Marine Corps and Navy variants of the F-35. The 
infrastructure of FRC East continues to lag in upgrades and new 
construction commitment from the Navy.
    The problem of antiquated legacy maintenance facilities is 
particularly acute in the Navy and how is the Joint Program 
Office, the Navy, and Marine Corps to ensure that we continue 
to commit resources to the right efforts to improve FRC East in 
their maintenance performance?
    Secretary Lord. We are looking at the capability of 68 
actual depot repair lines. We only have 30 of 68 up and going 
right now and we have committed to accelerate those to have 
them all completed by 2024, and it comes down to a number of 
items.
    It is getting equipment. It is getting tooling. It is 
getting the actual repair information out there. So what we 
have done is come up under our LCSP with a plan to do that and 
we are going back and working with Lockheed Martin and Pratt on 
each of these.
    But we are working down line by line on those and we meet 
monthly with both--all of the services to talk about the 
progress that is being made.
    Mr. Wilson. That is very encouraging, and we appreciate 
your service.
    And General Fick, the F-35 program does not maintain a war 
reserve materiel stock of F-35 engines, unlike other tactical 
aircraft programs.
    Was that a deliberate decision within the program to not 
maintain a war reserve materiel stock of engines and, if so, 
how will this risk be mitigated by not having war reserve stock 
during major contingencies?
    General Fick. So, sir, a program decision was made early 
on. I don't know exactly the date, but a program decision was 
made to spare modules instead of sparing engines, which 
presupposes then that you can take a module and insert it into 
an engine that requires a new, you know, compressor or turbine 
or burner module.
    The program is working closely with the services today to 
reassess whether that is the right approach or not. In most 
cases, as we have deployed forward, we have ended up taking 
spare engines with us despite the initial plan to take modules 
from a sparing perspective.
    That decision, I understand, was made for cost reasons. 
Much more cost effective to spare a module than an engine. But 
if you can't install the module in the engine then it isn't 
very much used, too.
    So, we are exploring--in light of recent deployments we are 
exploring whether that construct still makes sense today.
    Mr. Wilson. Well, thank you very much. Again, your service 
is so critical, and we have faith in your leadership.
    And Ms. Maurer, at the end of 2022 the F-35 worldwide fleet 
is expected to double from approximately 488 aircraft to 985.
    How will the sustainment enterprise keep pace with the 
expanding fleet and need for additional parts? What is the 
Department of Defense doing over the next 3 years to increase 
depot repair capacity?
    Ms. Maurer. Well, I think the first thing I hope that they 
are doing is implementing all 21 of our recommendations that we 
have made to them over the course of many years to help enhance 
sustainment of the program.
    Specific to the depot, we do know that the Department has 
made important progress in enhancing the depot capabilities, 
but they are 8 years behind their initial plans for doing so.
    Mr. Wilson. Well, we need your cheerful encouragement that 
we come up to date.
    And Secretary Lord, what is the service responsibility for 
funding the needed construction and modernization, again, at 
FRC East? Is it Navy or Marine Corps?
    Secretary Lord. I would defer to General Fick on that. I am 
not sure.
    General Fick. Sir, I am going to have to take that question 
for the record. I am not--I am not up to speed relative to what 
needs to happen from a facilitization perspective specifically 
at FRC East.
    But what I can tell you is, to Ms. Lord's previous point, 
is that we have now 68 planned workloads on contract with 
Lockheed Martin to actually stand those up from an organic 
depot perspective to include, as I understand it, capabilities 
to be stood up at FRC East.
    Mr. Wilson. Thank you very much. I look forward to getting 
a full and complete response and thank each of you for your 
service.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. I want to compliment my colleagues here on 
raising critical questions. The FRC, otherwise known as depots, 
the sustainment is not coordinated with the purchases of new 
airplanes.
    You are headed into a situation where we are going to have 
1,100 planes and we will not have the ability to maintain them.
    And so, the readiness is going to decline. The question 
that I am going to be pursuing in the months ahead is can we 
wait until 2024 to have half of the--to have the depots 
operating at half of the potential or half of what they need.
    The answer is no, we cannot wait unless we want a bunch of 
airplanes sitting, unable to fly. And this is the sustainment 
issue. This is the ALIS issue. This is also the spare parts 
issue--all of those things.
    Fact of the matter is this program has not paid attention 
to sustainment and it will from here on out. I will have you 
over here every week having another discussion about it.
    Ms. Maurer, you have listened to the testimony thus far. I 
would love to be asking you on every question that we asked Ms. 
Lord and General Fick and Mr. Behler, to comment on that. But I 
am well beyond my time.
    I am now going to turn to Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Ms. Lord and Lieutenant General Fick, in the GAO's 
sustainment report issued this past April 2019, you provided a 
recommendation for the Department to develop an intellectual 
property, or IP, strategy that includes identification of all 
critical technical needs and associated costs.
    The report states that DOD concurred with the 
recommendations but has not yet implemented it, and also that 
DOD's inability to obtain intellectual property and technical 
data from the contractor is an issue across the entire F-35 
supply chain.
    Can you please provide an update on the DOD's 
implementation of an intellectual property strategy and what 
challenges remain in obtaining the necessary technical data and 
IP from industry partners to better address supply chain 
deficiencies and bring down costs?
    Secretary Lord. We are doing a fundamental rewrite of all 
of our acquisition policy this year and we are concurrently 
reworking the entire curriculum at the Defense Acquisition 
University to make sure our acquisition professionals have the 
ability to really understand what is out there in policy.
    Our policy in the past has been very legalistic, I would 
say, and what we have done is decomposed it into what I call 
the adaptive acquisition framework with a variety of different 
acquisition authorities explained that Congress has given us 
over the last 5 years or so, along with contract types that 
should be used.
    One of the critical components of this is understanding 
intellectual property, so we actually have an intellectual 
property policy that is just about to be released where we 
worked closely with the Army, who began at the forefront of 
this.
    And what we are fundamentally saying is before we put 
together an acquisition strategy you have to think about what 
information is critical to a program, particularly in terms of 
sustainability, so you are not always held hostage to the prime 
on that through the life of the contract and that you can find 
better cost solutions through a variety of different providers.
    So we provide direction, asking the acquisition 
professionals to think about what is the information, the 
intellectual property that you need and that you don't need, 
and to make sure that is clearly articulated in the request for 
a proposal and then is addressed during contract negotiations 
because, frankly, if that was thought through at the beginning 
of programs you would not be where we are in the F-35 program 
today where the intellectual property is an afterthought and we 
are having to wrestle it as we go through each contract.
    So, it is core and fundamental to what we are doing. When 
we are training acquisition professionals now, versus kind of 
locking them down at Fort Belvoir usually for 8 or 12 weeks and 
learning, we are moving from sort of a transmit mostly mode of 
instructors to really doing adult learning where it is 
experiential learning where we have actual operators coming in 
and explaining what their experience has been on programs, have 
people live through the life of what they learned during 
particularly problematical acquisitions--mistakes they made and 
so forth.
    So, it is right at the forefront and I think you will see a 
lot coming out on that shortly.
    Mr. Carbajal. Thank you.
    Lieutenant General Fick.
    General Fick. Sir, I think Ms. Lord hit most of it. What I 
would go back to is the notion of--if I were to encapsulate our 
strategy in broad--in broad strokes, I would say it is to 
pursue the data that we need and only that data.
    Back in the beginning of this program as it was stood up as 
a TSPR program--a total system performance responsibility 
program--with Lockheed Martin in charge we didn't think about 
those data elements because we didn't think we would ever need 
them.
    So now what we are doing is, to Ms. Lord's point, putting 
those data elements on contract every time we need them 
delivered and in cases where the intellectual property issues 
get in our way, such as the ``F-35 in a Box'' issue we 
discussed earlier, we are actively challenging them.
    One of the things as we talked about the standup of those 
organic depots is it is critical that the data that enables us 
to do that work is delivered as we work to stand up those 
organic capabilities, and that is a great success story.
    As we have worked through those 60 of 68 items on contract 
now, each of those come with the data required to allow the 
organic workers, be they Air Force or Navy, to do that--to do 
that work.
    So we are making progress, but it is a broad problem.
    Mr. Carbajal. Thank you. And I only have a few seconds 
left.
    Ms. Maurer, are you aware of any other weapons system with 
similar supply chain problems from the lack of cost data or 
intellectual property from contractors?
    Ms. Maurer. You know, the F-35 program is unique in many 
aspects from the way it was first created and developed--the 
fact that it is an international program, the extent of the 
involvement of the prime contractor.
    And I would say, unfortunately, that the nature of the 
problems facing the F-35 program from the sustainment 
perspective are also unique.
    Just real quickly on the international property or 
intellectual property issue, that was an issue we flagged in a 
report in 2014 and we are quite pleased to see that the DOD is 
making progress in addressing it.
    But I really encourage you and the other members of the 
committee to pay close attention to that because I completely 
agree with Mr. Behler's comment earlier that weapons systems 
today are essentially flying or sailing or moving pieces of 
software, and the intellectual property is an important piece 
of that.
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Garamendi. Mr. Carbajal, thank you for raising that 
issue and thank you for calling on Ms. Maurer. I would like to 
make that a standard procedure.
    Mr. Bacon, you are next.
    Mr. Bacon. Thank you for being here and for your leadership 
on an important program.
    Ms. Lord and General Fick, I would just like to get a real 
clear opinion from you and impression. What will a continuing 
resolution, particularly if it goes into the next year--what 
will be the impacts on the F-35 program?
    General Fick. Sure. From a--from an F-35 perspective, what 
I look at are, basically, three areas. My ongoing development 
activities, specifically, the development associated with the 
generation of modifications to the platform was a new start in 
2020 and so those efforts will not be able to continue.
    One of those new start mod efforts was DCA, our dual-
capable aircraft--critical capability. That is very, very 
important to us that we get that. That is thing one.
    Thing two I would characterize is we have actually a plus-
up of C model production from 2018 to 2019. We will be held at 
2019 quantities if we are unable to get a budget in this year.
    And then the final thing I would add is that we also, thank 
you very much, had EOQ [economic order quantity] as part of 
this budget and that will help us to continue to drive 
production costs down in Lots 15 and beyond.
    So, if we don't get that--it is, roughly, half a--$500 
million or so--if we don't get that, that will delay our 
ability to start that work and the effectiveness of EOQ and 
production.
    Mr. Bacon. Ms. Lord.
    Secretary Lord. So General Fick gave you many specifics. I 
will tell you if we have a CR, we continue to have to rearrange 
work to not be able to move forward.
    So there is an enormous amount of administrative time that 
is really non-value added that goes to that and we have to 
continue to think ahead about what is the next impact. So the 
EOQs--the economic order quantities--for instance, we are 
always trying to figure out where those economies of scale are 
and how to best work that. We can't do that if we don't know 
when we are getting the money.
    Mr. Bacon. Okay. Thank you.
    I think it is important that Congress realizes there is 
impacts across the entire enterprise with a continuing 
resolution and we owe it to you and the F-35 program here to 
get our house in order.
    General Goldfein calls the F-35 the quarterback of, you 
know, the battlespace because it can receive all this data, 
fuse it, and disseminate it.
    I have been concerned for years that we don't--that we are 
not going to get this right--that we want to ensure that the 
fifth-generation aircraft are getting this data, but more 
importantly, the fourth-generation and, hopefully, we can get 
the data back to the air operations center. So while the F-35 
is still over the battle site, the next sorties that are taking 
off have the current battlespace data so that we can be more 
effective, save lives, and get the job done more effectively.
    How are we doing on this fusing of the data and 
transmitting of the data? So, really, I think this is probably 
mainly for General Fick but if others--anybody else has any 
feedback I will appreciate it.
    Mr. Behler. Yes, sir. That is a terrific question. We 
have--we have been doing operational testing with fourth and 
fifth gen together and what we are finding is the combination 
we are having a more lethal and more survivable force.
    The F-35 as the quarterback, like General Goldfein likes to 
say, is absolutely correct. You know, a stealth airplane has 
some challenges with how much weapons they can hold because you 
want it all internal to keep yourself real stealthy and low-
observable.
    So you need a truck that carries weapons for you and we 
have found that, you know, you put the F-35 with the A-10, 
which we did some--a lot of close air support--the combination 
of those two weapons together really provides a capability that 
we have never had before.
    F-35 with the F-15--with the F-15 and then the future EX F-
15--it will be just a big truck carrying weapons out in front 
of the F-35 doing the defensive and offensive counter air, and 
the communication will be--right now will be with a Link 16. 
But we hope that we will get better combinations of----
    Mr. Bacon. How are we doing at getting--thank you for that, 
because being a 30-year Air Force guy myself, I am totally with 
you on this. So, I mean, we want to make sure that we optimize 
this and take advantage of it.
    How are we doing getting the data back to the air 
operations center? Because that is really sort of a concern 
that I have not heard that we have really solved this because 
what we want to do is as the F-35s are leading the fight, the 
next wave has the data and also that our joint force is getting 
the data and so we can disseminate where the tanks--the enemy 
tanks are at, where the enemy S-300s could be, you know, and so 
forth.
    Mr. Behler. Right. Exchanging that information with the 
fleet, with the AOC [air operations center], with the tankers, 
is all critical to this mission, especially when you are flying 
a high-density, high-threat environment.
    Right now, the data from the F-35 to the AOC is not as good 
as it should be. I mean, you almost feel like there ought to be 
an ALIS terminal in the AOC to gather that information real 
time or having software--defined radios and--but we are not 
real-time enough, but we need to do that.
    And going forward in the future, the AOC--I mean, it is one 
of those things that technology begets doctrine, not doctrine 
begets technology.
    We have more capability in the F-35 than we have ever had 
in any other airplane; data fusion and the ability to 
understand the full situation we are in is one of them. That 
needs to be disseminated to the rest of the wings that are out 
there flying.
    The AOC is important, but I think it is more important to 
get the information out to the other warfighters and especially 
the tankers, too.
    Mr. Bacon. Thank you, Mr. Chairman.
    Mr. Garamendi. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Let me thank both chairs and both ranking members for 
convening this hearing today on the sustainment, production, 
affordability challenges of the F-35. A lot of hearings 
happening on Capitol Hill today.
    I think this is one of the most important not only today 
but in the 116th Congress. I say that because the F-35 is the 
most expensive program in the history of the Department and 
arguably one of the most complex acquisition, production, and 
sustainment programs.
    So, I want to thank the chairs. I also want to thank the 
professional staff members on HASC [House Armed Services 
Committee] for assisting Congress through your arduous and 
diligent effort engaging the Department and industry so that we 
understand this program and we can fulfill our congressional 
oversight role.
    We have heard about insufficient spare parts. We have heard 
that the Autonomic Logistics Information [System] known as ALIS 
is struggling.
    Mr. Behler, you mentioned that aircraft are breaking more 
often and taking longer to fix, and while General Fick, in your 
short tenure you are observing or seeing progress, I think 
Secretary Lord probably captured what most of us understand and 
appreciate, that much work remains.
    So, I am going to indulge the chairman, Chairman Garamendi, 
and start with a question with Ms. Maurer from the GAO, our 
watchdog. I value tremendously the work that you do, the work 
that your colleagues do, and the recommendations that you make.
    So, you mentioned that there were 21 recommendations. You 
said that DOD agrees with most, so I assume there is one or 
more that they don't agree with.
    So, could you please either identify the most significant 
recommendation that DOD does not agree with? And then, Ms. 
Lord, if you could kind of respond so I can have a little bit 
of back and forth, and to the extent that DOD does agree with 
all of them, which recommendation are--concerns you most in 
terms of the rate at which they are implementing that 
recommendation, and then perhaps Ms. Lord could respond.
    Thank you.
    Ms. Maurer. Sure. Well, first off, thank you very much. It 
is a privilege and honor to spend my professional career at GAO 
and serving the Congress and the taxpayer, so thank you.
    In terms of our recommendations, DOD has concurred with a 
vast majority of them. The relative handful--and we are talking 
about 3 or 4 out of the 21--are related to the issue of cost 
assessment.
    A lot of that dates back to some of our prior work and GAO 
and the Department basically have a philosophical difference of 
views on how robust cost assessments and cost estimates should 
be and the extent of--extent to which you build flexibility or 
a variation around the future cost estimates, whether you have 
a point or whether you have a range, and I think a lot of the 
differences are around that point.
    Secretary Lord. This really gets to the nature of the types 
of systems that we are developing today. They are hardware 
enabled but software defined. We also have an adversary who is 
rapidly changing what they are doing.
    So, we have overall requirements but we want to maintain a 
very flexible requirement level to some degree to be able to 
respond to that. We also want to make sure that in the 
software-defined environment we are able to really take 
advantage of DevOps in terms of coding software.
    So, essentially, we are developing, producing, and 
sustaining software all at the same time, running testing every 
night. We talked about having cloud environments where we 
have----
    Mr. Brown. Okay. Let me just do this. I think I have the 
call of your response. What is your response, Ms. Maurer?
    Ms. Maurer. So in terms of the recommendations that we 
think are most important, we had a couple of recommendations in 
a report that we did this year as well as one that was issued 
about a year and a half ago that asked the Department, or the 
program more specifically, to look fundamentally at the 
structure of the overall approach to sustainment as well as the 
approach to a supply chain.
    We found and we were very concerned about the fact that 
over a period of many years the Department had been incremental 
and reactive in its approach to these critical issues.
    We have started to see the Department getting traction on 
some of those. But frankly, there is a long way to go. There 
are a lot of important details that have not----
    Mr. Brown. And could you just--in the last 30 seconds I 
have can you give us a sense of what that does in terms of the 
sustainment, production, and affordability?
    Ms. Maurer. Well, for example, one of the key things that 
has not been worked out is the movement of spare parts around 
the global supply pool, right. That means we have to--the 
contractor has to move parts between the U.S. services and the 
partners.
    That requires a number of specific trade agreements to move 
the parts from country A to country B. Those have not all been 
negotiated. That slows down the ability to move parts and it 
affects the overall ability to sustain the system in the field.
    Mr. Brown. Thank you. I wish I had more time.
    Will there be a second round, Mr. Chairman?
    Mr. Garamendi. No, there will not be a second round.
    Mr. Brown. Okay.
    Mr. Garamendi. We will move to the contractors----
    Mr. Brown. Okay.
    Mr. Garamendi [continuing]. And you may want to ask them 
that question.
    Mr. Brown. Thank you, Mr. Chairman. Thank you.
    Mr. Garamendi. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our witnesses for joining us today.
    Mr. Behler, I would like to begin with you. We have had a 
lot of information given back to us about the ALIS system. We 
all know how it is designed to work, taking lots of data in, 
using that to integrate that, make sustainment choices.
    We have heard about the challenges with software, how the 
system is supposed to operate versus how it does operate, what 
happens with sustainment issues, supply chain, all those kinds 
of things.
    But what I want to ask is if we get all those problems 
fixed it still seems like to me that there is indeed a 
challenge because that system relies on with the F-35 being 
able to communicate--give that information back and forth.
    And we know that if we find ourselves in a contested 
environment, comms are going to be denied. So then the question 
becomes is what happens to ALIS in a comms-denied environment 
or what we are doing to really channel comms.
    As you know, there are a lot of different things that we do 
to manage that under an EMCON [emissions control] condition. 
Give me your perspective on how does ALIS function within that 
environment, especially if it is over a long period of time.
    Mr. Behler. Right. So that is a question we have been 
asking for a while. We have actually taken aircraft to austere 
locations and operated them for an extended period of time to 
see if we can do exactly what you are suggesting to be able to 
and the exact days that it can go without refeeding the ALIS 
into the connected back to Fort Worth, you know, that is to be 
determined.
    We really don't know that yet. But you bring up some really 
important points. You know, in a comms-denied environment how 
do we do command and control of just the air warfare but not 
having access to ALIS.
    When we were out on the aircraft carrier the Abraham 
Lincoln to watch the sortie generation there, it is kind of an 
austere location when you think about it. The biggest challenge 
with ALIS of getting the information of the aircraft into the 
current system on the carrier which had--all the ALIS modules 
had to be brought out there and it just ran out of room because 
there was so much space required and so much--you know, the 
heating requirements, electrical requirements.
    So that is going to be something that we are going to have 
to do more investigation on and we will be definitely writing 
that in our--in our final report.
    Mr. Wittman. It seems like the problems that you point out 
now--software, sustainment issues, supply chain--potentially 
could be exacerbated if you are operating in a comms-denied 
environment.
    So I hope that you all look very carefully at that because, 
to me, that seems like the largest strategic question that we 
are going to have to address and there may not be as direct an 
answer to it as a software issue and the other operational 
issues that have been pointed out.
    Mr. Behler. Yes. They are an enormous challenge. I will 
leave you with one point. I believe that information is like 
ammunition.
    Mr. Wittman. Yes.
    Mr. Behler. It needs to be in the hands of the warfighter.
    Mr. Wittman. Exactly.
    Mr. Behler. It doesn't need to be back in some central 
location. It has got to be right where it needs to be, like at 
the squadron-level ALIS system in an operational environment.
    Mr. Wittman. Lieutenant General Fick, let me get you to 
drill down a little bit on that. We know that our large-deck 
amphib ships are the operating platform for the F-35 Bravo. 
That variant has proven to be a game changer for the Marine 
Corps.
    But what happens with that is that that aircraft is able to 
gather so much information and our large-deck amphibs, 
unfortunately, don't have the ability to take that information 
in in real time so the C2 [command and control] capabilities 
there then are very, very limited.
    So, tell me your perspective on what do we do to get the 
full power capability of the JSF, the F-35 Bravo, through our 
Navy's large-deck amphibs?
    To me, there is a limiting factor there. It is not just the 
structural issues of the heat on the deck and reinforcing the 
deck but it is--you know, what are we doing to be able to get 
that information in real time and utilize it in ways that are 
tactically important to the warfighter?
    General Fick. Sir, thank you for the question.
    First, if I can go back to the previous one. We do carry a 
requirement to do disconnected ops for 30 days with ALIS in its 
current instantiation, and as we work to rearchitect ALIS and 
to look at what the requirements as we march forward from both 
a data architecture and a hardware architecture perspective, we 
need to examine that requirement to operate in austere 
locations so that we get the right system built in to be able 
to accommodate that.
    Relative to the big-deck amphibs, we have had cases over 
the course of the last 12 months in which ALIS data 
specifically was choked coming off the--coming off the 
platform.
    In each of those cases, I understand that it was basic 
network settings that some combination of we not communicating 
properly with the ship's company or them not communicating 
properly with the F-35 folks onboard prevented us from getting 
the network set up in a way that enabled that communication to 
happen.
    So, I think two things need to happen as we march forward. 
One is we need to look at what is the bare minimum amount of 
data that has to flow in this new architecture to allow us to 
do the things we need to do on the ship. So we minimize the 
demand for that pipe.
    Then the second part, sir, is to make sure that when it 
comes to instantiating ALIS aboard those big-deck amphibs or at 
those austere basing locations that we actually have a very, 
very well-defined installation process so that we don't have to 
discover these things again.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman.
    Mr. Garamendi. Thank you for your question.
    We are not doing a second round of questions but in 
deference to my chair, co-chair, Mr. Norcross does have another 
set of questions that he would like to get on the record.
    Mr. Norcross. Just a quick followup, General, dealing with 
the Turkey question. They had 24 aircraft in the most recent 
contract award. How do you mitigate that issue to preserve the 
unit price for the contract, taking those 24 into 
consideration?
    General Fick. Sure. So what we did to maintain both the 
flow and the overall quantity as we--as we worked very, very 
closely with Lockheed Martin because we had already been a 
handshake before this Turkey removal happened.
    We work closely with Lockheed, my negotiating team, and the 
Air Force, I would add, because what we were able to do is to 
slide congressional plus-ups from U.S. Air Force A's into those 
positions in the production line to allow the U.S. Air Force 
then to take possession of those aircraft as they flow off. So 
that the eight Turkish designated----
    Mr. Norcross. When you say the plus-ups, the potential 
plus-ups that we are talking about?
    General Fick. From Lots 12 and 13 specifically.
    Mr. Norcross. Okay.
    General Fick. And then looking at potential plus-ups in 14 
to take care of the 8 Turkish F-35As in Lot 12, the 8 Turkish 
F-35As in Lot 13 and then also in Lot 14.
    Mr. Norcross. And they have two more production aircrafts.
    So, we are adding those in anticipation of O&S that is now 
running out of control and we are not handling those F-35s that 
are coming off the line now and we are talking about adding 24 
in a more expedited role. How do you plan to handle that cost? 
Those 24 are coming in quicker----
    General Fick. Yes.
    Mr. Norcross [continuing]. Than we had planned for, 
correct? So, the O&S side of that equation is now being pushed 
forward. How are you addressing that----
    General Fick. Being accelerated? So, these aircraft were--
sir, I guess I would like to come back to you with a more 
complete answer. Ultimately, those aircraft were intended to be 
purchased by the Air Force in Lots 12 and 13 and 14 anyway. 
They are just being accelerated by a number of months forward.
    Mr. Norcross. We understand what you are saying.
    General Fick. Okay.
    Mr. Norcross. It is not the acquisition costs.
    General Fick. It's sustainment. Right.
    Mr. Norcross. It's how do we accelerate the costs of 
maintaining and those O&S.
    General Fick. Yes.
    Mr. Norcross. Ms. Lord, just quickly, do you have anything 
to add to that?
    Secretary Lord. Just that we are trying to work with the 
economies of scale here to our benefit as we work forward----
    Mr. Norcross. For the purchase price, absolutely. But----
    Secretary Lord. No. No. No. But as we also work forward on 
sustainment contracts we are doing the same type of thing where 
we are looking at the costs very carefully and making sure that 
the indirect costs associated with the direct costs are coming 
down so that we get those and making sure that we structure all 
the contractual agreements so that they do have incentive fees 
that have to be earned versus fees that go along with that.
    Mr. Norcross. The point we are trying to make here, and I 
think it is across the board, is that the sustainment costs are 
a major issue. I think the acquisition costs are going 
relatively well, if not good.
    But when we push or accelerate those planes into the 
sustainment side of the equation earlier, we are not prepared 
for them.
    So, I yield back.
    Mr. Garamendi. I thank you, Mr. Norcross. That is the 
fundamental point we have been raising throughout this entire 
hearing.
    We are going to have to move on now to the industry--
Lockheed Martin and Pratt & Whitney. Thank you. I was just 
about to ask another question of the current panel, but I am 
going to not do so.
    I would like--if you are--I am sure the current panel has 
other appointments--would like to get to them. But perhaps your 
staffs can stick around, if they would do so.
    All too often I have seen the first panel head out the door 
when they should be here to listen to what others have to say.
    So, thank you very much for that. Thank you very much.
    Here is what we are going to do. We are talking about $1.4 
trillion over the next 20 years or so. That will be taxpayer 
money spent on what most people consider to be the most 
important element of the air battles that may take place in the 
future and we got a big problem here. This thing is not working 
well and in many cases is not working at all.
    And so, we are going to have another opportunity to speak 
to the four of you in early January, and we may do it in a 
closed hearing. We are likely to do it in a closed hearing. So, 
enjoy the holidays.
    [Laughter.]
    Mr. Garamendi. Thank you very much. Appreciate your 
testimony.
    We are going to now move to the second panel. We are going 
to take a short break, no more than 5 minutes, as people move 
and to reassemble themselves.
    So, thank you.
    [Brief recess.]
    Mr. Garamendi. Begin our second panel now, and we have two 
witnesses.
    Mr. Greg Ulmer, vice president and general manager of the 
F-35 program for Lockheed Martin, and Matthew Bromberg, 
president of Military Engines at Pratt & Whitney.
    So, Mr. Ulmer, if you would like to start. You were here to 
listen to the previous panel.
    Mr. Ulmer. I was.
    Mr. Garamendi. So, start wherever you want and then we will 
have our turn.

   STATEMENT OF GREGORY M. ULMER, VICE PRESIDENT AND GENERAL 
       MANAGER, F-35 PROGRAM, LOCKHEED MARTIN CORPORATION

    Mr. Ulmer. Thank you, Chairman.
    Chairman Norcross, Chairman Garamendi, Ranking Member 
Hartzler, Ranking Member Lamborn, distinguished members of the 
committee, I appreciate this opportunity to testify on behalf 
of Lockheed Martin and the F-35 II--Lightning II industry team.
    I thank you for your support and your continued partnership 
in advancing this critical program and for your steadfast 
support of our men and women in uniform.
    Before I take your questions today, I would like to provide 
a brief update on the F-35 program from industry's perspective.
    While we continue to face challenges, there is no doubt the 
program is beginning to hit its stride and we will continue to 
work with the services, the Joint Program Office, our 
international partners, and Congress to ensure the program 
remains on track.
    I have submitted my full statement to the committee, which 
I ask be made part of the hearing record at this time.
    The F-35 stealth technology, supersonic speed, advanced 
sensors, weapons capacity, and increased range make it the most 
lethal, survivable, and connected aircraft operating in the 
world today, and with more than 455 aircraft now deployed on 
operational missions and conducting advanced training 
exercises, we are seeing users deploy the aircraft and weapons 
system beyond what was ever first envisioned.
    F-35s now operate from 20 bases, 3 ships, and 9 countries 
operating aircraft on their own home soil. The F-35 has and is 
transforming coalition operations today.
    The F-35 is also empowering economic growth. The program 
has 1,500 Tier I suppliers with more than 1,400 of those in the 
United States, spanning 45 States and Puerto Rico, and supports 
more than 220,000 direct and indirect jobs.
    In the United States alone the economic impact is more than 
$44 billion annually.
    The industry team is ready for full-rate production. Our 
plan is to deliver 131 aircraft this year. Currently, we are 
delivering at a rate of 12 aircraft per month, which positions 
us to meet next year's aircraft delivery rate of more than 140 
aircraft, and we have additional capacity to accommodate 
increased production rates atop of that.
    Lockheed Martin and the U.S. Government recently announced 
the agreement for Lots 12 through 14 contract, which achieved 
the shared government and industry challenge of delivering a 
less than $80 million aircraft 1 year earlier than originally 
planned and reduced costs on all 3 variants by an average of 
12.7 percent.
    As operational deployments continue to increase, we are 
keenly focused on the need to reduce sustainment costs and 
improve mission readiness. We believe with the same disciplined 
approach we can deliver cost reductions similar to those that 
we have realized in production.
    Sustainment costs will continue to decrease as operational 
lessons learned are implemented, data-informed predictive 
health monitoring improves, spares parts availability 
increases, and a more robust repair capacity is realized within 
our military depots and across the original equipment 
manufacturers.
    We firmly believe a 5-year performance-based logistics 
contract structure coupled with $1.5 billion in advanced 
funding from Lockheed Martin will provide stability and funding 
needed to accelerate cost savings and improve readiness rates 
for the F-35 while allowing the program to operate within its 
existing budget today.
    Today, we are developing and leveraging and integrating new 
technology to ensure the F-35 stays ahead of ever-evolving 
threats while widening the gap over fourth-generation aircraft.
    In conclusion, we are on a positive glide path with the F-
35 and we are quickly solidifying its role as the backbone of 
fighter fleets of our nation and well--those as well of our 
closest allies.
    On behalf of the men and women of Lockheed Martin, we thank 
those in uniform and their families for all that they do today 
and every day to keep us safe, and we appreciate the critical 
role Congress plays to ensure our warfighters ready to succeed 
on the battlefields of not only today but of tomorrow.
    I thank you for this opportunity and your strong support 
for the F-35 and I stand ready to answer your questions.
    Thank you.
    [The prepared statement of Mr. Ulmer can be found in the 
Appendix on page 124.]
    Mr. Garamendi. Thank you very much, Mr. Ulmer.
    Mr. Bromberg.

STATEMENT OF MATTHEW F. BROMBERG, PRESIDENT, MILITARY ENGINES, 
                        PRATT & WHITNEY

    Mr. Bromberg. Good morning. Thank you, Chairman.
    Chairman Garamendi, Chairman Norcross, Ranking Member 
Lamborn, Ranking Member Hartzler, and distinguished members of 
the House Armed Services Committee, thank you for the 
opportunity to appear before you today to share Pratt & 
Whitney's role in the production and sustainment of the F135, 
the propulsion system for the Joint Strike Fighter.
    Also, thanks for the constant congressional support of this 
program. I also want to acknowledge Under Secretary Lord, 
General Fick, and Lockheed Martin for their partnership.
    From the 369,000 Wasp engines produced in World War II to 
nearly 200 F135 engines we will deliver in 2020, every Pratt & 
Whitney engine bears a seal that proclaims two words: 
dependable engines.
    Our focus today and tomorrow remains squarely in supporting 
the warfighter and doing so in a manner that safeguards the 
American taxpayer.
    The F135 propulsion system is the world's most powerful and 
advanced operational fighter engine. The F135, developed with 
our international partners, provides unmatched performance, 
safety, reliability, and affordability, all of which contribute 
to the National Defense Strategy.
    Production and affordability are top priorities. Today, we 
have produced more than 500 F135 engines and in 2019 we are on 
track to produce our contracted engines, doubling our output 
over the past 2 years.
    In 2020, we aim to achieve a production rate of 
approximately 200 engines and modules per year, which will 
remain steady for the program of record. We are also investing 
in surge capacity to support increases in production and 
sustainment.
    Through a jointly funded war on cost, Pratt & Whitney has 
reduced the average production cost of the F135 by 50 percent. 
While we are pleased with our progress to date, we recognize 
the imperative to do more.
    Looking forward, we have the opportunity to invest in 
longer-term cost reduction projects such as developing 
alternative suppliers and leveraging advanced manufacturing 
technologies in digital, automation, and additive.
    These activities require a long-term vision and consistent 
funding. With a worldwide fleet of more than 500 F135 engines, 
Pratt & Whitney is driving towards world-class sustainment.
    As the fleet grows, we are committed to reduce sustainment 
costs by 50 percent. The most important factor is reliability 
and, fortunately, the F135 has consistently exceeded 94 percent 
mission capability.
    Pratt & Whitney drives high mission capability through 
advanced digital analytics, prognostics, and health monitoring. 
In addition, the component improvement program is a critical 
funding priority to maintain levels of reliability and low-cost 
sustainment.
    Effective sustainment requires collaboration between the 
government and Pratt & Whitney. We have a strong history of 
public-private partnerships and working across government 
agencies. Sustainment is a core competency.
    We support more than 100,000 engines around the world 
between our commercial and military franchises and we are 
committed to sustaining the F135.
    With development of the baseline Joint Strike Fighter 
program complete, focus is now on modernization. It is 
important to assure that the growth in aircraft capability is 
matched with propulsion growth.
    Fortunately, the F135 has ample design margin to permit 
agile upgrades. We are, again, working closely with the Joint 
Program Office to develop a propulsion upgrade roadmap.
    In conclusion, the F135 is an integral part of the National 
Defense Strategy. The F135's unique capabilities of power and 
stealth provide the warfighter vital advantages.
    The F135 supports more than 33,000 high-technology jobs 
across 31 States. We remain laser focused on meeting our 
commitments, production, cost, readiness, life cycle 
affordability, and propulsion growth. We are committed to 
delivering the most capable engine to the warfighter while 
providing the most value to the taxpayer.
    Thank you again for the opportunity to appear before the 
subcommittees. I, too, have a written record which will be 
submitted in. I look forward to your questions.
    [The prepared statement of Mr. Bromberg can be found in the 
Appendix on page 142.]
    Mr. Garamendi. I almost want to invite Ms. Maurer to join 
us at the table. So, if you would come up, we may ask some 
questions because we are going to go right back at issues we 
talked before. Prerogative of the chair to change things if the 
chair thinks it is important, and I do.
    We had a lot of questions that were asked of the previous 
panel, all of which are questions that should be asked of the 
two of you and, Ms. Maurer, you may want to comment along the 
way or maybe ask to comment along the way.
    Where to start? Lockheed Martin--Mr. Ulmer, you own ALIS. 
What are you going to do about it not working?
    Mr. Ulmer. Yes, sir. We have been working for some time now 
to improve the ALIS system.
    Mr. Garamendi. Let us go right to the heart. Are we headed 
for a new architecture?
    Mr. Ulmer. Yes, sir.
    Mr. Garamendi. And how long will it take and what will it 
be to bring that new architecture on, and will it be secure?
    Mr. Ulmer. Lockheed Martin is working with the Joint 
Program Office and our international partners relative to 
establishing, as you heard in the previous panel from General 
Fick, that we are targeting September of 2020 relative to 
implementation of that new architecture, and it will have the 
security requirements from cybersecurity as well as sovereign 
data management.
    Mr. Garamendi. Your original contract called for ALIS to 
work. It doesn't. Are you paying for the upgrade?
    Mr. Ulmer. We are spending about $50 million relative to 
internal funds to improve ALIS--as General Fick alluded to, 
classic ALIS. We are also implementing additional company funds 
in the order of $120 million in terms of the new architecture 
investments to support the path forward.
    Mr. Garamendi. I am going to turn the remaining 3 minutes 
43 seconds over to Ms. Escobar.
    Ms. Escobar. Chairman, thank you so much.
    Mr. Garamendi. Plus five if you need it.
    Ms. Escobar. Well, thank you so much, and good morning. 
Thank you all for your testimony and for your time here today.
    Mr. Ulmer, I really appreciated that you laid out exactly 
how you have been able to ramp up and prepare and plan ahead, 
and I actually would like to know a little bit more about your 
plan going forward.
    You know, the GAO report talked about some trade 
complications with regard to parts and would like to know about 
your long-term plan for the parts, and would you be using U.S. 
sourcing?
    Do you have a 5-year timeline, 10-year time line sort of a 
vision? Does Lockheed have a vision for assisting us and, if 
so, if you wouldn't mind laying that out in a little bit more 
detail than in your testimony, please.
    Mr. Ulmer. Okay. A little clarification on the question. 
Are you talking about from, like, a Turkey alternate resource?
    Ms. Escobar. Yes.
    Mr. Ulmer. All from a Turkey alternate resource?
    Ms. Escobar. Yes, sir.
    Mr. Ulmer. Yes, ma'am. We are on a trajectory to resolve 
all the alternate resource parts by March of 2020. As General 
Fick alluded to in the previous testimony, there are a handful 
of parts on the order of magnitude of 20 that are beyond that 
March 2020 timeline.
    But by December of 2020 we will have the ability as the--on 
the airframe side to completely resource all material from 
Turkey. There is approximately 850 parts. We understand each 
one of those parts in terms of what alternate resources 
requirements are doing.
    We are approaching those within the United States capacity 
and ability--approaching the supply chain to manage those 
parts. We are also--in some cases in the international 
environment we have supply that is already being provided by 
current international participants that produce similar or same 
parts. We are taking advantage of that relative to risk 
reduction of those parts.
    So, it is a full enterprise approach relative to managing 
those parts. But I want to assure you that by the end of next 
year all of those parts will be resourced and we are well on 
our way.
    Many of the 850 so have already been resourced and are 
protected.
    Ms. Escobar. Thank you so much, sir.
    Chairman, I yield back.
    Mr. Garamendi. Thank you, Ms. Escobar. Thank you very much.
    Mr. Lamborn.
    Mr. Lamborn. Thank you.
    And I am going to follow up on some of these major issues 
that we have been talking about. But first I want to bring up 
an issue I don't think we have touched on yet and that is 
simulator servers, and my understanding is that we have had an 
unusually high failure rate among the simulator servers and 
that many locations have had to wait months to receive repaired 
servers.
    So, Mr. Ulmer, given the severe impact that this has on 
training, what is Lockheed Martin doing to ensure that this 
will not be a problem in the future?
    Mr. Ulmer. So, we have had an infant mortality issue with 
the blade servers, and we have modified those servers. That 
modification occurred in May of 2019. We have seen significant 
improvement from that modification.
    Today, we are currently going to each site to update those 
servers. We are doing it in a fashion such that as we remove a 
server for use, we rework that server and we have a return pool 
to try to rapidly backfill those parts back into the supply 
base.
    So, our approach is really to get a supply pool that is 
being worked as we pull parts from the sites and then we 
position those parts back in as quickly as we can.
    Mr. Lamborn. So, I realize security concerns are paramount 
here, but you are producing enough spares that you can quickly 
do replacements when one breaks?
    Mr. Ulmer. Yes, sir. We have worked with Collins, a 
supplier, relative to that and we are buying additional spare 
capacity on top of the requirements just to sustain and 
maintain the units.
    Mr. Lamborn. Okay. Thank you.
    And for both of you, when it comes to intellectual 
property, I am really concerned about the issues that we have 
had so far. You know, the taxpayer paid, ultimately, for the 
intellectual property.
    So, what are your two companies' current positions on 
intellectual property within the F-35 program and will the 
government have access to all of the IP that it needs to 
sustain and operate the F-35?
    Mr. Ulmer. Chairman, I would offer that data rights and 
intellectual property, as we heard from the first panel, is a 
significant issue.
    The beginning of the F-35, the approach for data rights was 
really focused on four tenets: to support operations; to 
support maintenance, align maintenance; to support the standup 
of the bases; and to support training.
    As the programs matured and progressed, the U.S. Government 
position on data rights and IP has matured and progressed 
relative to that. So we have work to do as an enterprise 
relative to that data rights associated with the F-35.
    I also would like to emphasize the supply base for the F-
35. Lockheed Martin is responsible for approximately 30 to 40 
percent of that intellectual property.
    The other is third-party suppliers, and so Lockheed Martin 
is working with those third-party suppliers to establish data 
rights required to support the enterprise, going forward.
    Mr. Lamborn. Mr. Bromberg.
    Mr. Bromberg. Yes, sir. Thanks for the question.
    First, for the F135 our development, production, and 
sustainment contracts have data right packages included in them 
and we are compliant with those.
    Secondly, when design the engine and produce the engine, we 
design it with sustainment in mind, and when we plan to sustain 
the F135 we will do so initially at the Tinker Heavy 
Maintenance Center in Oklahoma City where we sustain many other 
U.S. service engines. And there we provide all the tactical 
data for those maintainers to ensure they can deliver and 
support the F135.
    We are incentivized to do that based on the mission 
capability metrics of the performance-based logistics contract. 
It is how we have done every other management program and how 
we will execute this one.
    Mr. Lamborn. Okay. Thank you.
    Mr. Ulmer, I will finish up with this question. Given the 
challenges we've seen with the management of the F-35 supply 
chain, isn't it premature to jump into a 5-year contract--
performance-based logistics contract--as opposed to going on a 
1-year cycle where we make sure all the bugs are worked out 
before we go to a 5-year cycle?
    Mr. Ulmer. That is the discussion we are having with the 
OSD and JPO today relative to what is the appropriate approach 
to a performance-based logistics contract.
    The benefit of stepping to a performance-based logistics 
contract today is today we do annualized contracts and within 
those annualized contracts the industry does not have a long 
time to make an investment relative to cost-saving initiatives 
to get costs out, to bring improvements forward relative to a 
new part on the aircraft.
    We have examples where we have resourced parts on the 
airplane to take advantage of life-cycle cost savings, in 
particular the digital--the distributed aperture system where 
we have resourced a completely new component on the aircraft. 
It is forecasted to save $3 billion across the life of the 
program.
    It will be 45 percent more reliable. It has twice the 
capability of the current and that is the kind of investment we 
want to make over a longer-term horizon is that kind of 
opportunity to make those kinds of investments to bring the 
price down.
    Mr. Lamborn. Okay. Thank you.
    And since you are here, Ms. Maurer, could you comment on 
this before I yield back?
    Ms. Maurer. Sure, real quickly.
    Mr. Lamborn. The indulgence of the chairman.
    Ms. Maurer. Yes, thank you for the question.
    From a GAO perspective, we think that there are potential 
benefits of going to multiyear performance-based contracting 
approach for sustainment. That is a general proposition.
    However, in a report that we issued last year we expressed 
some concerns about DOD's ability to enter into such multiyear 
contracts in part because the Department lacks good information 
about the overall cost of sustainment as well as the unresolved 
nature of many of the data rights and intellectual property 
issues.
    We think that these issues need to be resolved before DOD 
can enter into long-term sustainment contracts--multiyear 
sustainment contracts.
    Mr. Lamborn. Okay. Thank you.
    Mr. Chairman.
    Mr. Garamendi. We are coming down to a smaller group here, 
so we are going to be a little less formal.
    Mr. Lamborn raised an extraordinarily important issue. Ms. 
Maurer, you commented on that, and the Department and the 
negotiations are underway for a multiyear contract.
    And I want you to go back to what you were saying and go 
into more detail about the issues that need to be resolved or 
at least a pathway to resolution before we move to a multiyear 
contract. If you will hone in on that.
    Ms. Maurer. Sure, absolutely.
    So in the report that we issued last year we talked 
specifically about the Department's lack of good information 
about what the true costs are for sustaining the F-35 and we 
think that is an important part of the Department's ability to 
negotiate with a contractor for that, get the best bargain, the 
best value for the money that the taxpayers will ultimately be 
responsible for these costs.
    DOD, at the time of our report, did not have good 
visibility and understanding of the overall costs of 
sustainment. That is one issue.
    Mr. Garamendi. This is an issue that has--that requires our 
attention. We are talking $1.4 trillion over the next 25 years 
or so--an extraordinary amount of money that is really going to 
be controlled by two companies, both of whom are at this table.
    Now, that is a pile of money. Obviously, you have 
subcontractors that are--and others that are involved in this 
including the military portion of the $1.4 trillion or so.
    This--our committees--Mr. Norcross and I are not going to 
back away from getting into the detail and for my part here I 
don't see a multiyear contract going forward until the 
fundamental questions that have been asked thus far and several 
that have not yet been put on the table are resolved.
    And heretofore the contractors have had the long end of the 
lever and the government has been on the short end of the 
lever. That is going to change.
    That is going to change because thus far this program has 
not worked well. Made progress, no doubt about it. But we got 
some very, very serious problems that have to be resolved.
    And so, the power is shifting so that the government will 
have at least that fulcrum moving closer to the government side 
as we go into these years out ahead.
    So be aware, gentlemen. Be aware. We have got to solve 
these problems and there is a whole list of them.
    Mr. Norcross, it is your turn.
    Mr. Norcross. Thank you.
    Mr. Ulmer, just quickly, let me follow up. I don't want to 
talk too much. You said 30 to 40 percent of the intellectual 
rights are within Lockheed Martin, assuming the others are with 
whom? The gentleman to your left? Subcontractors that you 
control or subcontractors that others control?
    Mr. Ulmer. It is a mix. There is GFE--government-furnished 
equipment--on the aircraft. There is the additional subtiers 
under Lockheed Martin that control that, the different industry 
elements of the program.
    Mr. Norcross. So you will have control over your 
subcontractors in this issue?
    Mr. Ulmer. Yes, sir.
    Mr. Norcross. The ones that, obviously, we have? Okay. Just 
putting that aside. So, we heard a lot today about issues that 
have gone on and I think it is important to talk about those.
    But I also want to say bringing down the cost per unit, it 
is a very good thing. But those costs, will we accelerate those 
even though we are bringing them down? We are shifting over to 
Mr. Garamendi's committee those sustainment costs and that is a 
big issue.
    Turkey--the parts supply has always been a challenge for 
you--things that you control versus things that we control or, 
certainly, the engine compartment.
    When we are setting up the 850 parts that Turkey was 
involved in, who was making the actual decision who is going to 
stand up with which companies, and for both of you I assume you 
make the decision for your engine components and who--how do 
you make that decision versus oversight from others? We put you 
in that position by pulling Turkey out.
    Mr. Ulmer. So, we follow our normal resource acquisition 
process, which we do each and every day. So, we are constantly 
looking at do we have the appropriate supply base, do we need 
to seek alternate sources for other reasons than political.
    It might be financial performance. It might be poor health 
of a company. It might be poor performing equipment. We have a 
very detailed process relative to how we resource our material 
or source our material.
    Mr. Norcross. But for Turkey you are following----
    Mr. Ulmer. We are following our normal process in 
conjunction with sharing that information with the Joint 
Program Office.
    Mr. Norcross. Okay. So, when we start dealing with that 
were you anticipating that the parts that you are getting today 
from Turkey were going to continue to this point? Were you 
surprised in your planning for moving forward?
    Mr. Ulmer. I don't quite understand the question. Were we--
--
    Mr. Norcross. The initial question when Turkey was going to 
be informed that they were suspended from the program there was 
a potential for the parts to stop that day.
    Mr. Ulmer. Yes.
    Mr. Norcross. Which would have put us in a very precarious 
situation and throw our schedule way off. They are still 
supplying and is there reason to believe that they might stop 
anytime soon?
    Mr. Ulmer. Other than politically, no. The Turkish industry 
is very much a part of F-35. They are strong performers. They 
produce high quality at a low cost.
    They are very interested in if in a political environment 
able to remain within the F-35 program they desire to do so. 
Other than politically, we are not concerned relative to that 
supply.
    Mr. Norcross. So, they could continue, hypothetically, to 
supply us. Up to what point are you planning now to cut them 
off and be cut off by----
    Mr. Ulmer. Per direction, we have been directed to target 
March--end of March 2020--to terminate our relationship 
relative to Turkish supply.
    Mr. Norcross. And that----
    Mr. Ulmer. Our approach--our approach to date----
    Mr. Norcross. Transition does not postpone any of the 
production line by that standard?
    Mr. Ulmer. No, sir. Our approach to date was we are not 
opening any new additional purchase orders or ordering 
additional material beyond the March of 2020 timeframe.
    If Turkey has the capacity and ability to produce 
additional parts within that time slot between now and March in 
2020, industry will take advantage of getting that supply.
    Mr. Norcross. That was a best-case scenario when we were 
talking about this over a year ago.
    Mr. Ulmer. Yes, sir.
    Mr. Norcross. So, when the sole source contracts for those 
850 parts--is it a competitive contract with you or does that 
have more to do with who can get that to us quicker?
    Mr. Ulmer. Chairman, first off, it is not just single 
source. We have actual single source, dual source, and even 
triple source.
    Mr. Norcross. Right. I am just talking about the single 
source replacement for Turkey parts.
    Mr. Ulmer. Yes. Restate the question, please.
    Mr. Norcross. Is it--when you go for the single source, 
which I think there is only maybe a half dozen critical items 
in there, is that a competitive contract to you or is it who 
can supply that part in the timeframe we need?
    Mr. Ulmer. In this specific--in this specific circumstance 
if there is competition to be had, we will approach that from a 
competitive situation. If there is a--if there is an industry 
participant that has that capability, a subject matter 
expertise that gets to a quick solution, we will procure it 
immediately that way to protect the risk--against the risk--and 
then over time we will competitively bid that work beyond this 
period of performance.
    Mr. Norcross. So short term it is a risk. Long term it is 
pricing.
    Mr. Ulmer. Yes, sir.
    Mr. Bromberg. And, Chairman, I would like to just add from 
a Pratt & Whitney perspective, we have 200 parts that have been 
sourced in Turkey. The Turkish suppliers are actually high-
performing suppliers, as you have heard today. Low cost, high 
quality, on-time delivery.
    We have been coordinating our actions with the Joint 
Program Office for actually the past couple years and, like 
Lockheed Martin, we are on track to handle a separation in 
March of 2020 with potential a final separation in December of 
2020.
    To your question of how we resourced it, we actually 
sourced about 80 percent of those parts back into the United 
States for the sake of speed in order to protect the program 
schedule and many of the most critical parts are actually back 
into Pratt & Whitney where we have the capability to ramp up 
much faster than working anywhere else.
    So, we did that for the sole reason and in conjunction with 
the Joint Program Office to protect the speed of the production 
line.
    Mr. Norcross. Just real quickly, are all the new suppliers 
U.S. based or do any of our partners get a taste?
    Mr. Ulmer. Initially, we--from a Lockheed Martin 
perspective, we sought U.S. sources. There were some specific 
cases where international partners already were sourcing the 
same exact material. So to reduce risk we went with those 
international companies.
    Mr. Bromberg. Exactly the same position for Pratt & 
Whitney. About 80 percent were sourced in the United States 
where we had existing capacity or the capability to do the 
work; 20 percent went to international suppliers that already 
did similar work and can ramp up quickly.
    Mr. Garamendi. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Let us talk about parts a little bit here. Reliability and 
maintainability is really important--that the part is reliable, 
it does what it is supposed to do, and we are able to maintain 
it, and I understand that we have been making steady progress 
on both of those fronts.
    So how has the reliability and maintainability improvement 
projects--how are they progressing and to what extent are these 
projects having any impact, positive or negative, on the 
manufacturing floors?
    Mr. Ulmer.
    Mr. Ulmer. Yes, ma'am.
    If we look over the course of the procurement of the 
aircraft in particular from Lot 6 annually to today, 
reliability and maintainability has improved significantly lot 
over lot.
    So, the aircraft today that we are delivering today are a 
lot more reliable than the ones we delivered 6 years ago, 7 
years ago.
    We continue to focus on reliability and maintainability 
improvement on the program. I will tell you, in comparison to 
other programs the enterprise has not necessarily funded 
reliability and maintainability improvements.
    To give you an example, on the F-22 program, which has a 
fleet of approximately 185 aircraft, that program funds 
approximately $70 million in support of reliability and 
maintainability improvements on that fleet.
    This year in this FY [fiscal year] the F-35 program has 
funded $7 million for a fleet of 455 aircraft. That said, 
industry has made a significant investment relative to 
reliability and maintainability improvements on the platform 
and that really is the reason why lot over lot we have seen 
that significant improvement as those parts become more 
reliable in the fleet.
    Mrs. Hartzler. Great. Thank you.
    Mr. Bromberg.
    Mr. Bromberg. Yes, ma'am. So, from an engine perspective, 
the F135 is the most reliable fighter engine we have ever 
produced. In 230,000 hours of operation it has maintained an 
average mission capability of north of 94 percent and, in fact, 
this milestone in service, 200,000 hours, it is 10 times more 
reliable than the F-100 was at the same milestone.
    So, I think that is a testament to the fantastic engineers 
and technicians in Pratt & Whitney that know how to design 
dependable engines.
    However, we have to be vigilant, and just as Mr. Ulmer 
said, we are firmly supporting the component improvement 
program which has a proven track record on all our engines at 
addressing reliability issues early when it can be done cost 
effectively and ensure sustainment and mission capability.
    Mrs. Hartzler. Great.
    Let us talk about availability because that has been an 
issue--the availability of parts and flight lines are just 
down, waiting, and even our forces are having to cannibalize 
some of the parts from other aircraft to keep them flying.
    So, what are you doing to work with DOD and the Joint 
Program Office to improve the management of ready-to-issue 
spare parts, and I would also say not just the management but 
the availability of the parts?
    Mr. Ulmer. Several different aspects in terms of our 
approach to improve reliability of parts on the aircraft and 
availability of parts on the aircraft.
    First, in the lots--again, back to Lot 16 we went to what 
was called a Tech Refresh 2 configuration for the F-35. We 
had--we have some units that we needed to accelerate those 
updates to those airframes to get more reliable parts. An 
example is Eglin Air Force Base had a fleet of aircraft that 
did not have that refresh in them.
    And so, as part of the acceleration process we went and 
accelerated the implementation of that Tech Refresh into those 
fleets such that they have newer, more reliable parts.
    We also have a reliability improvement program where you 
identify the top poor performers on the aircraft in terms of 
those items need to be improved.
    And so, we understand what those are and we have 
historically worked those top performers down. We are also 
improving the health diagnostic system on the aircraft. Many 
times, from an availability perspective, we were telling the 
mechanic or the technician--the flight line technician--to 
remove a part when in fact it was not broken.
    And so, the health diagnostic system on the airplane, when 
we went from the development program to the 3F configuration we 
saw a 60 percent improvement of no false alarms of those parts 
on the aircraft.
    So we are no longer having the mechanic take that part off 
the airplane and staying on the airplane.
    Mrs. Hartzler. So, the question was more--not so much 
issues with parts that are already on but the availability, 
that they are available to begin with.
    So, what are the parts that you seem to have a shortage of 
the most? Is the canopy an issue? What are some of the other 
parts that you are short?
    Mr. Ulmer. So, the primary driver as alluded to by General 
Fick is the canopy. The wing-tip lens is another part from a 
portability perspective. We understand each one--each and every 
one of those parts.
    Ready for issueness has also been--the issue has been with 
the electronic digital file that is associated with those 
parts. The GAO report indicates that as an issue on the 
platform.
    In the last 2 years, we have done several things to resolve 
that problem. One is any parts coming out of the facility when 
we deliver an aircraft, we ensure that those electronic files 
are correct and appropriate.
    For the parts coming out of the warehouse, we are ensuring 
that those parts from a digital pedigree are appropriate and 
can be consumed by the warfighter without issue.
    There are parts within the supply that still have that 
issue that were issued prior to our corrective actions. Within 
the last 2 years we have cleansed that data by approximately 50 
percent, and so we have taken an extreme effort relative to 
cleansing the data associated with those parts such that when 
the mechanic goes to reach that item off the shelf and 
implement it, it is in fact capable of doing so.
    Mrs. Hartzler. Great. Can I----
    Mr. Bromberg. Do you mind if I also answer the question, 
ma'am?
    Mrs. Hartzler. No way. No. Sure.
    [Laughter.]
    Mr. Bromberg. You know, I think--from an engine perspective 
again, we contract separately from the airframe. We plan our 
production systems separately from the airframe and we are 
going to maintain sustainment separately from the airframe.
    We collaborate in many areas but there are some 
differences. In terms of how we think about the demand for 
production and sustainment, from the inception we design our 
engines for sustainment, as I mentioned before.
    So, when we loaded the capacity requirements to produce 
parts, we loaded all those for new engines, modules, and spare 
parts.
    As a result, we actually have a fairly significant stock of 
spare parts both in Pratt & Whitney and military facilities 
around the world, and part of our mission capability is because 
our nonmission capability due to supply when the part is not 
available is averaging less than 2 percent.
    Mrs. Hartzler. That is great.
    Mr. Bromberg. So, I think the team has done a nice job. We 
need to remain vigilant because, as we have talked about in the 
prior panel, that forecasting and stocking problem changes over 
time. But we have got dedicated sustainment professionals and 
that is what they do.
    Mrs. Hartzler. Great.
    Mr. Chair, can I ask one more question here?
    Mr. Garamendi. Do you need more time?
    Mrs. Hartzler. I do need more time.
    Mr. Garamendi. Go for it.
    Mrs. Hartzler. Okay. So, Mr. Ulmer, a recent Department of 
Defense inspection general report titled ``Audit of F-35 Ready-
for-Issue Spare Parts and Sustainment Performance Incentive 
Fees'' found that the DOD did not receive ready-for-issue F-35 
spare parts in accordance with contract requirements and paid 
performance incentive fees on the sustainment contracts based 
on inflated and unverified F-35A aircraft availability hours. 
So, do you plan to reimburse DOD for these pay performance 
incentive fees?
    Mr. Ulmer. Ma'am, the current recent sustainment contracts 
have those incentives now embedded in them relative to our 
performance. So previously, prior to that report, we did not 
have that kind of incentive. We do now in terms of issue 
effectiveness, part availability, those kinds of metrics.
    Separately from that, on our own accord we are off 
cleansing the data, as I just--as I just testified--relative to 
resolving that problem at our expense to cleanse those parts.
    Mrs. Hartzler. So, going forward, this isn't going to be an 
issue and just to clarify, going back, what this audit was on 
you say you have paid back those fees?
    Mr. Ulmer. No, ma'am. We haven't paid back those fees. 
Prior to this--prior to the implementation of those incentive 
fees, we did not have that in terms of the contract 
performance. We do today. So, I don't earn a fee today if I 
have those issues.
    Mrs. Hartzler. Okay. All right.
    I yield back.
    Ms. Maurer. Mr. Chairman, could I--30 seconds on 
reliability and----
    Mr. Garamendi. Yes, please do.
    Ms. Maurer [continuing]. It is directly relevant to the 
ranking member's question.
    A good thing for further oversight is to recognize the fact 
that the operational requirements document that underlies the 
F-35 has eight reliability and maintainability requirements; 
four of those eight are being met.
    Those are the four that are contractually required. The 
other four that are not contractually required are not being 
met, and that is an issue we have reported on extensively over 
the last couple of years.
    Mr. Garamendi. So, it helps to have a contract?
    Ms. Maurer. Absolutely, and put it into the contract. Yes.
    Mr. Garamendi. Well, I have got so many questions, but I am 
going to turn to Mr. Brown and try to control myself.
    So, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Once again, I want to thank both chairs and both ranking 
members for conducting today's hearing as we conduct our 
responsibility--our congressional responsibility or oversight 
responsibility of the F-35 program sustainment, production, and 
affordabilities.
    And I am especially pleased that for today's hearing and 
this panel here because this is the first time in my 3 years as 
a member of the House Armed Services Committee that I can 
recall that we have invited our defense industrial base 
partners to present and make themselves available to 
questioning from Members of Congress and I think that it is 
important.
    I do also want to once again thank Ms. Maurer, you and your 
colleagues at the Government Accountability Office. I can tell 
you that I frame my positions--I base many of the decisions 
that I make as a member of this committee based on the good 
work that you do. You are our watchdogs and you do fantastic 
work.
    I had an opportunity to visit on July 30th the F-35 
production line. I hope perhaps to get out to the F135 
production line at Pratt & Whitney in the near future and I 
want to certainly take the opportunity to thank Lockheed Martin 
but more particularly the members of the team--the members on 
that production line who I had an opportunity to meet with--the 
machinists, the assemblers, the mechanics, the coders, and from 
the engineers to the back office that is a group of dedicated 
men and women who are doing their very best to make sure that 
our warfighters have the systems, the platforms, that they need 
to do their job, to do effectively, and to come home safely to 
their families.
    So, to Lockheed Martin and to--I am sure the same can be 
said about the men and women at Pratt & Whitney. I thank that 
dedicated workforce.
    Ms. Maurer, maybe we can do another sort of back and forth, 
this time with you and Mr. Ulmer. You had, in the GAO report, 
sort of four categories where you grouped your recommendations.
    One was DOD lacks critical information to effectively plan 
for long-term F-35 sustainment and one of the recommendations 
there was that the DOD needs to obtain comprehensive cost 
information for F-35 spare parts.
    Can you just sort of, you know, flesh that out a little 
bit? What was the problem? What is the recommendation and then 
perhaps Mr. Ulmer can be responsive to your remarks.
    Ms. Maurer. Sure. Absolutely.
    So, I think as we all know, when the program was first 
launched it was launched under a very different construct than 
programs are typically launched today.
    Back when it was started almost 20 years ago, the idea was 
that the government was going to hand over logistics support 
almost entirely to the contractor. So that is the way the 
program was formulated and executed for a number of years.
    Fast forward to now, when the Defense Department is trying 
to get a clean financial opinion, one of the big challenges it 
is facing right now to get that clean financial opinion is 
putting a dollar value on the parts that it is purchasing for 
the F-35 program.
    One of the things we found in our report earlier this year 
is that DOD currently literally doesn't know where the parts 
are and they can't match up the dollars that they spent back to 
specific major end items and major parts.
    That makes it very difficult for them to get a clean 
financial opinion. I know that right now the Joint Program 
Office and OSD is working closely with Lockheed and the other 
contractors to resolve that issue.
    But since that wasn't built into the contract, it wasn't 
built into the structure of the program, it is a pretty major 
undertaking.
    Mr. Brown. So, Mr. Ulmer, what is industry doing to assist 
the Department in addressing that recommendation?
    Mr. Ulmer. First off, I would like to say I believe we have 
a very solid working relationship with GAO. We do an annual 
review on the program--a deep dive on the program--and then we 
support any specific audit or request with full transparency 
with the GAO.
    Relative to the parts, Lockheed Martin has a property 
management system that is accredited by DCMA, the Defense 
Contract Management Agency. We are working right now with the 
JPO relative to the program office setting up their own 
property management system.
    We are supporting that effort as we speak across the entire 
F-35 enterprise. So, we will help and we are helping the JPO 
program office acquire all that information as alluded to.
    Mr. Brown. Ms. Maurer, are you--do you have anything that 
you want to add or----
    Ms. Maurer. We are aware that this is an ongoing 
initiative. It is something that is going to take a while to 
dig out from. It is not something that is going to resolve very 
quickly.
    We are encouraged by the progress we have seen from the JPO 
and we want to see them work closely with Lockheed as well.
    Mr. Brown. Thank you.
    Mr. Bromberg, let me ask you, what is Pratt & Whitney doing 
to help the government reduce its procurement costs for engines 
and subsequent sustainment costs after fielding?
    Mr. Bromberg. Yes, sir. Thanks for the question.
    As I indicate in my remarks, we are pleased with the 50 
percent reduction of the unit price of an F135 to date but we 
are not satisfied that that is enough, going forward.
    We recognize that the strategy we used to achieve the 50 
percent reduction needs to evolve. The program I alluded to was 
a jointly funded government-Pratt & Whitney program called 
Pratt's War on Cost--$200 million of investment that yielded 
2,000 different actions that took 50 percent of a unit price of 
an F135 down, resulting in $7 billion, $8 billion of program 
savings to the government. Very successful program.
    However, where we are now with 500 engines in service, a 
very stable engine configuration in achieving that 94 percent 
mission capability that we talked about, we need to shift to a 
different strategy that allows us to leverage the long-term 
procurement plan for the F135 and maintain a stable 
configuration for the engine so we can maintain the 
reliability.
    So the way we will do that is by leveraging two primary 
areas: one, advances in manufacturing technologies that did not 
exist when we launched the program such as digital, automation, 
and additive; and secondly, developing alternative suppliers 
where we find we don't have enough of a competitive landscape 
so that we can get true value to the taxpayer. Those are both 
long-term strategies but strategies that we are working with 
the Joint Program Office to embrace.
    That cost reduction I talked about will lend directly to 
sustainment cost reduction. In terms of a depot visit, 60 
percent of the cost is from new materials. So the more we 
reduce the price of an engine and the materials that go into 
it, the more cost effective the maintenance is.
    Secondly, it goes to the component improvement program, 
sir, we talked about earlier, make sure you maintain 
reliability. And, finally, it's effective management at the 
operational level and the depot level, something Pratt & 
Whitney takes very near and dear to its heart.
    We have thousands of sustainment professionals and we are 
going to work collaboratively with the government to do that.
    Mr. Brown. Mr. Chairman, if I could have the benefit of the 
same indulgence that you showed to my colleagues. I just have 
one more question.
    Mr. Garamendi. You are stretching it.
    Mr. Brown. Short question. Hopefully a short answer.
    Just for Mr. Ulmer, how confident are you that you will get 
to $25,000 cost per flight hour by 2025 as you have stated and 
what tools do you need from the Department or Congress to help 
you get there?
    Mr. Ulmer. The confidence is high if we resource load the 
approach, and what does that mean? The resource load of the 
approach is General Fick and Ms. Lord indicated we have a life 
cycle sustainment plan. We need to make sure that we apply the 
necessary resources to that plan to allow the cost savings on 
the back side of that plan.
    And then the other element I would add is the performance-
based logistics contract. We need a long-term contract relative 
to allowing industry to make those investments over a longer 
period of time that have those cost savings reductions on the 
back side.
    We have a history and Blueprint for Affordability [BFA] on 
the F-35 program. Two different cycles. The BFA 1 cycle with a 
$500 million investment; over the life cycle of the program, a 
$6 billion savings across that life cycle. That is the approach 
and the benefit relative to that.
    Mr. Brown. I thank the chair and I yield back no time.
    [Laughter.]
    Mr. Garamendi. Always sufficient time for good questions 
and thank you for the good questions.
    We are really out of time. The next hearing is about to--
will commence in less than an hour and they are going to bring 
the doggies in here to make sure that none of you are leaving 
some of your equipment behind to snoop on what the next 
classified hearing will have.
    Going forward, heads up. If you haven't figured it out, the 
Readiness Subcommittee, together with the Tactical Air and Land 
will be coordinating our efforts in the months ahead to drive 
out of this F-35 program the known problems.
    There is a long list of them. GAO--Ms. Maurer, you and your 
team are extraordinarily important to us, to this program, and 
to the contractors for their attention to issues that they may 
not observe or be willing to observe, and so we are going to 
really rely heavily on you.
    Also, I want to point out that the professional staff here, 
Ms. Harris from my staff and the professional staff on Mr. 
Lamborn's side, Mr. Norcross, have done an extraordinary job 
following this along.
    We are going to come back at this in January and we are 
going to go at it in additional detail. We didn't get into the 
cataloguing issue, into the issue of parts which, fortunately, 
Mr. Brown has brought up together with Mrs. Hartzler. We are 
going to go at those in more detail.
    There is a transition underway here from total reliance 
upon the contractors to a shared responsibility into the 
future.
    It seems to me, and I will put this on the table because I 
am sure it is going to happen, is that the services, now that 
they are getting these planes and being held accountable for 
the operational readiness of the planes, are going to demand 
more authority and responsibility, and that is going to shift 
the nature of the Joint Program Office in the future and shift 
the relationship between the contractors and the Department of 
Defense, Joint Program Office, and the various services. That 
shift is already underway. The Defense Logistics Agency is 
going to be playing a major role, going forward.
    Thank you, Ms. Maurer, for pointing out that there are 
7,000 parts that the Defense Logistics Agency has on various 
shelves somewhere around the world. Sixty-three hundred of 
those are parts that fit various tranches of the F-35.
    So how does that fit into this? What are the roles of these 
various agencies, going forward? We are looking at--I was 
reminded that I will not be here for the end of this program, 
which is apparently not 20 years from now, which was my 
personal time horizon, but 58 years from now. Not likely to be 
my responsibility then.
    However, for us, this is our here and now. We got to get 
this right, and so we are going to rely on everybody, going 
forward.
    I want to particularly thank my colleagues here for their 
questions, for their attention to this matter.
    We will see you in mid-January. Thank you so very much.
    This hearing is adjourned.
    [Whereupon, at 12:41 p.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                           November 13, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 13, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
   
    
   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 13, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. FRC East is the largest industrial depot that 
generates combat air power for both the Marine Corps and Navy variants 
of the F-35. The buildings at FRC East, like all of the other fleet 
readiness centers in the United States, continue to lag in upgrades and 
new construction commitment from the Navy. What is DOD doing to address 
the sustainability of F-35 in terms of depot upgrades, specifically at 
FRC East? How should the CNO and the Commandant of the Marine Corps 
address the future needs of FRC East, which is the only Navy fleet 
readiness command resident on a Marine Corps air station? The problem 
of antiquated, legacy maintenance facilities is particularly acute in 
the Navy. How can the Joint Program Office, the Navy, and the Marine 
Corps ensure that we continue to commit resources to the right efforts 
to improve FRC East and their maintenance performance?
    Secretary Lord. The Department of the Navy, as outlined in the 
Commander, Fleet Readiness Centers Infrastructure Optimization Plan 
(IOP), is not only addressing the sustainability of the F-35, but also 
the future needs of FRC East (FRCE) by upgrading various depot 
facilities and equipment. This includes the construction of a new F-35 
maintenance hangar, and the construction of an advanced composites 
repair facility in addition to numerous other MILCON projects. The IOP 
requests a rough order of magnitude investment of $3.5 billion over the 
next decade. Of this total, approximately $1.5 billion is required for 
MILCON projects, an estimated $1 billion for sustainment, restoration, 
and modernization of facilities, and roughly $1 billion for equipment 
recapitalization. Modernization will enable the depots to fulfill their 
current production requirements and achieve the production objectives 
within the COMFRC Strategic Plan. The Joint Program Office, the Navy, 
and the Marine Corps, to include the Chief of Naval Operations and the 
Commandant of the Marine Corps, understand the importance of FRCE to 
the F-35 Program, along with the other naval aviation depot support 
that FRCE provides, and will work together to determine the best way 
forward to realize the requirements laid out in the IOP.
    Mr. Langevin. FRC East is the Navy's only depot dedicated to 
maintaining the F-35B and if need, the F-35C. FRC East resides on a 
USMC installation, MCAS Cherry Point. However, FRC East is owned by the 
Navy, specifically, Naval Air Command (NAVAIR). FRC East requires 
significant investments to build and modernize facilities there to 
maintain the F-35. There appears to be some disagreement between the 
Navy and Marine Corps over who is responsible for paying to upgrade 
facilities at FRC East. I am concerned this argument is delaying 
progress. Which service is responsible for funding the needed 
construction and modernization efforts at FRC East? The Navy or the 
Marine Corps?
    Secretary Lord. The Department of the Navy is responsible for 
funding construction and modernization efforts at all Fleet Readiness 
Centers (FRC)s. In support of the F-35B and F-35C Fleet, and the 
required facilities at FRC East, the Navy and Marine Corps are working 
an acceptable solution agreeable to both parties. The DON will provide 
an update once this agreement is completed, estimated to be NLT the 
3rd/4th QTR CY2020 timeframe.
    Mr. Langevin. The facilities at our depots that are being used to 
maintain the F-35 were designed for 2nd and 3rd generation aircraft. 
That is to say, they were built in the 1940s and 50s. A 5th generation 
fighter needs modern maintenance facilities. Otherwise, I do not 
believe we will be able to sustain the F-35 in a war against a near-
peer adversary. Does the Navy and Air Force have a comprehensive plan 
to modernize the depots being used to maintain the F-35? If so, what is 
that plan and what is the timeline for implementation?
    Secretary Lord. Yes the Navy and Air Force have a comprehensive 
plan to modernize the depots.
    For the Navy, COMFRC is modernizing all three Depots in support of 
F-35 aircraft, engines, and components. COMFRC's Infrastructure 
Optimization Plan (IOP) provides a roadmap to update the Industrial 
Depot's facilities and equipment to support both legacy and fifth 
generation weapon systems. Phase 1, completed in 1st quarter 2019, 
included an initial baseline assessment of the Depot's most critical 
production and manufacturing facilities and critical equipment. Phase 1 
identified an estimated $3.5B requirement over 10 years (roughly $1.5B 
Military Construction (MILCON), $1B Sustainment, Restoration, and 
Modernization (SRM), and $1B Industrial Support Equipment). COMFRC's 
Phase 1 Report to Congress was submitted in April 2019. IOP 
Implementation is already underway. We received initial FY19 and FY20 
Industrial Support Equipment funding as well as approval to increase 
rates in FY21 to fund the SRM requirements. We also continue to compete 
for MILCON funding through the Navy MILCON program.
    In 2018, the Air Force accomplished a comprehensive baseline 
assessment and developed a 20-year roadmap for modernizing all three 
organic depots to support legacy and fifth generation weapon systems. 
The Air Force plan identified requirements stratified across 4 
dimensions (IT/industrial software, equipment/technology, facilities, 
and infrastructure). In 2019, the Air Force began leveraging the U.S. 
Army Corps of Engineers (USACE) to refine our plan and optimize our 
industrial processes. Our leadership is working Planning Choices via 
Air Force corporate structure for prioritization of funding options. We 
continue to compete for MILCON funding to support legacy and fifth 
generation weapon systems beyond FY28.
    Mr. Langevin. According to a June 2018 GAO report, the Department 
was planning to defer fixes for some of the F-35's deficiencies until 
after a full-rate production decision. Category 1 deficiencies are 
those that could jeopardize safety, security, or a critical requirement 
for the aircraft. Will you approve full-rate productionn with Category 
1 deficiencies still open?
    Secretary Lord. The twelve open F-35 Category 1 deficiencies (as of 
9 December 2019) are summarized below, along with the rationale for 
proceeding with a full-rate production decision. Although #5 will 
require a small hardware modification for customers who desire a 
solution, all other planned actions for these deficiencies are being 
phased to coincide with planned software updates.
    1. F-35B Tailboom & Horizontal Tail Damage During Sustained 
Supersonic Flight: All missions can be accomplished while complying 
with the time limit imposed at the high-speed edge of the flight 
envelope. There is no evidence to-date of any significant sustainment 
issues due to exceedance of the time limit.
    2. F-35C Tailboom & Horizontal Tail Damage During Sustained 
Supersonic Flight: All missions can be accomplished while complying 
with the time limit imposed at the high-speed edge of the flight 
envelope. There is no evidence to-date of any significant sustainment 
issues due to exceedance of the time limit.
    3. Hydraulic line rupture caused by a blown tire: There have been 
no operational observances of this issue to date. The System Safety 
Risk Assessment concluded that the design is compliant (low risk) and 
does not need further mitigation.
    4. Radar Sea Search limited to a small pre-designated area: U.S. 
services concurred with the design for Sea Search in 2014 and the 
fielded baseline meets these requirements. Follow-on improvements for 
Sea Search are planned for 2024 and require enhanced processing 
capability, enabled through Block 4.
    5. Cabin Over-pressurizations Create Conditions Possible to Induce 
Barotrauma: There have been no operational observances of this issue to 
date. The System Safety Risk Assessment concluded that the design is 
compliant (low risk). An improvement to cockpit pressure regulation is 
under investigation, but has yet to be flight tested.
    6. Unanticipated thrust limits in jetborne flight on hot days: 
Significant improvements have been made with vehicle and engine 
software updates in 2019, and with enhanced fleet procedures. 
Additional software updates in mid-2020 will restore compliant engine 
performance for F-35B.
    7. Obscured Night Vision Camera scene during below-mean starlight 
ambient lighting conditions: No alternative technology is ready for 
implementation today, requiring use of shipboard lighting on very dark 
nights. A software improvement will be attempted in mid-2020.
    8. Incorrect inventory data for complex assemblies continues to 
result in grounding conditions: Ongoing data quality issues with 
information stored in the Autonomic Logistics Information System (ALIS) 
may cause occasional delays in releasing aircraft for flight. Data 
quality improvements continue to be worked.
    9. Lack of DTED Elevation Data for Pilot Entered Waypoints: The 
pilot interface was concurred with by services during system design, 
but this issue was identified during operational test. Software 
resolution is expected in mid-2020.
    10. SINS alignments aboard QE class carriers fail to achieve 
mission capable solution: A workaround solution of in-motion alignment 
has been successfully used aboard HMS Queen Elizabeth during recent 
events. Software solution for SINS cable alignments will be released in 
late 2020.
    11. Classified DR #445: Details are classified. The solution 
appears to be a non-F-35 software update planned for mid-2020.
    12. Classified DR #494: Details are classified. The solution will 
be included in an F-35 software update in mid-2020.
    Mr. Langevin. You have said in the past that Turkey makes nearly 
1,000 parts for the F-35. Do you still expect those Turkish suppliers 
to be replaced by March 2020?
    Secretary Lord. The F-35 Joint Program Office (JPO) is working with 
Lockheed Martin and Pratt & Whitney to develop, identify and qualify 
alternative sources for 817 air vehicle parts (3% of bill of material) 
and 188 propulsion parts (6% of bill of material) currently made in 
Turkey so that they may also be removed from the supply chain. The U.S. 
Services have provided $589M for this activity, which began in March 
2019. Plans are underway to transition the majority of parts in the 
Turkish supply chain by March 2020. Of note, production of six landing 
gear components, the Center Fuselage, and F-135 Integrally Bladed 
Rotors (IBRs) do not support an abrupt supply cut-off date of March 
2020. The JPO is working mitigation strategies to develop alternative 
sources to Turkish supply for these parts:
    <bullet>  Six Landing Gear parts are anticipated to be transitioned 
by the end of December 2020 to alternative sources. Based on current 
rough estimates, an abrupt March 2020 supply cut-off date for landing 
gear would disrupt 81 on-time aircraft deliveries. Lockheed Martin is 
working to mitigate these late deliveries by using a pool of available 
landing gear until there is a sufficient line of balance with alternate 
sources.
    <bullet>  The JPO is currently developing courses of action to 
transfer center fuselage work from Turkey to Northrop-Grumman 
facilities in Palmdale, CA, where the rest of the center fuselage work 
is currently executed. The center fuselage is a major component of the 
F-35 aircraft and full transition to Palmdale requires simultaneously 
terminating purchase orders in Turkey while preserving work in progress 
and raw material. These purchase orders pre-date the alternate source 
activities. Although the schedule impact to aircraft of transitioning 
center fuselage to Palmdale is much less severe than landing gear, the 
F-35 Program is seeking alternatives in additional tooling for Palmdale 
to make up the capacity currently sourced from Turkey.
    <bullet>  The IBR portion of the propulsion system is the long lead 
component that would pace production after landing gear and center 
fuselages. The JPO has worked with Pratt & Whitney and USD (A&S) staff 
to provide funding to procure additional milling machines to 
manufacture IBRs originally provided by Turkish suppliers. These 
milling machines will be installed in Pratt & Whitney's Connecticut 
facility and will increase capacity to support F-35 needs. If the 
supply of these three parts were disrupted in March 2020, it is 
foreseeable that we would expect to start seeing aircraft delivery 
delays within a few months. Although we are aggressively qualifying 
alternate sources and facilitating them to produce at rate, our current 
modeling, paced by landing gear, suggests that the impact of a March 
2020 supply disruption is estimated to be 81 aircraft delivered after 
their contracted schedule delivery date. The JPO estimates that 
maintaining these supply chains until December 2020 would provide the 
time needed to avoid production line impacts.
    Mr. Langevin. Within the F-35 supply chain, do you see 
manufacturing of spare parts competing with manufacturing of parts for 
new production aircraft when it comes to industrial base capacity? The 
military depots should help relieve capacity challenges for the 
industrial base on parts repairs. However, according to GAO, current 
projections show the depots will not have the ability to fully meet the 
demand for repairs until 2024. What steps are you taking in the 
interim?
    General Fick. Manufacturing of parts to meet production and initial 
spare requirements do compete for existing industrial base capacity 
today. The requirement for initial spares will grow proportionately 
with the number of new production aircraft; similarly, we expect the 
demand for the repair of Line Repairable Units (LRUs) will grow as the 
fleet grows. The same subcomponents required to produce parts for 
production and initial spares are also required for the repair of these 
LRUs. From an F-35 perspective, the primary role of the military depots 
is the repair of LRUs. Currently, some Original Equipment Manufacturers 
(OEMs) are also repair facilities. This repair burden competes for 
capacity with the manufacturing of new parts to support production and 
initial spare requirements. To alleviate the impact repair places on 
OEM capacity, the F-35 enterprise (JPO, Lockheed Martin, and Pratt & 
Whitney) have accelerated activation of organic depot repair 
capability. To date the depot repair acceleration plan is on track to 
enable all organic repair activations to reach full rate by 2024. As of 
31 December 2019, 30 of 68 Depot Activations have occurred, exceeding 
our 2019 goal by one workload. In the interim, we are encouraging 
Lockheed Martin and Pratt & Whitney to enter into discrete Performance 
Based Logistics agreements and Master Repair Agreements to incentivize 
OEMs to invest in repair capability and production capacity of 
critically in-demand spares. Additionally, in September 2019, the JPO 
awarded a Special Tooling and Test Equipment (STATE) contract to 
provide additional resources to meet the anticipated 5-year demand of 
sustainment, production and modification parts.
    Mr. Langevin. I understand that industry is responsible for 
selecting new vendors that will replace the Turkish supply chain. Where 
are we in that process? How many of those parts will be production 
ready through new vendors by March 2020, by which time Turkey will be 
suspended from the program? If there are new suppliers that will not 
have contracts in place and be production ready by March 2020, how long 
can industry maintain current or planned production rates? When could 
we start seeing delays that impact the production line?
    General Fick. Turkey has been suspended from the program. The F-35 
Joint Program Office (JPO) is working with Lockheed Martin and Pratt & 
Whitney to develop, identify and qualify alternative sources for 817 
air vehicle parts (3% of bill of material) and 188 propulsion parts 
(6% of bill of material) currently made in Turkey so that they may also 
be removed from the supply chain. The U.S. Services have provided $589M 
for this activity, which began in March 2019. Plans are underway to 
transition the majority of parts in the Turkish supply chain by March 
2020. Of note, production of six landing gear components, the Center 
Fuselage, and F-135 Integrally Bladed Rotors (IBRs) do not support an 
abrupt supply cut-off date of March 2020. The JPO is working mitigation 
strategies to develop alternative sources to Turkish supply for these 
parts:
    <bullet>  Six Landing Gear parts are anticipated to be transitioned 
by the end of December 2020 to alternative sources. Based on current 
rough estimates, an abrupt March 2020 supply cut-off date for landing 
gear would disrupt 81 on-time aircraft deliveries. Lockheed Martin is 
working to mitigate these late deliveries by using a pool of available 
landing gear until there is a sufficient line of balance with alternate 
sources.
    <bullet>  The JPO is currently developing courses of action to 
transfer center fuselage work from Turkey to Northrop-Grumman 
facilities in Palmdale, CA, where the rest of the center fuselage work 
is currently executed. The center fuselage is a major component of the 
F-35 aircraft and full transition to Palmdale requires simultaneously 
terminating purchase orders in Turkey while preserving work in progress 
and raw material. These purchase orders pre-date the alternate source 
activities. Although the schedule impact to aircraft of transitioning 
center fuselage to Palmdale is much less severe than landing gear, the 
F-35 Program is seeking alternatives in additional tooling for Palmdale 
to make up the capacity currently sourced from Turkey.
    <bullet>  The IBR portion of the propulsion system is the long lead 
component that would pace production after landing gear and center 
fuselages. The JPO has worked with Pratt & Whitney and USD (A&S) staff 
to provide funding to procure additional milling machines to 
manufacture IBRs originally provided by Turkish suppliers. These 
milling machines will be installed in Pratt & Whitney's Connecticut 
facility and will increase capacity to support F-35 needs. If the 
supply of these three parts were disrupted in March 2020, it is 
foreseeable that we would expect to start seeing aircraft delivery 
delays within a few months. Although we are aggressively qualifying 
alternate sources and facilitating them to produce at rate, our current 
modeling, paced by landing gear, suggests that the impact of a March 
2020 supply disruption is estimated to be 81 aircraft delivered after 
their contracted schedule delivery date. The JPO estimates that 
maintaining these supply chains until December 2020 would provide the 
time needed to avoid production line impacts.
    Mr. Langevin. How many open Category 1 deficiencies do you have on 
the F-35 today?
    Mr. Behler. The F-35 program has 13 open Category 1 deficiencies 
that are ``In Work & Under Investigation,'' per the latest Program 
Office Deficiency Report Metrics, dated 31 October 2019.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Is the dual-capable aircraft (DCA) capability currently 
on track to meet the NATO need date of January 2024? The original plan 
was to cut-in DCA capability into Lot 13. Did this happen, and if not, 
what were the reasons for the delay? Are you experiencing any technical 
challenges or issues with the development of DCA required software?
    General Fick. Yes, the F-35 JPO and DCA stakeholders are on track 
to meet the accelerated DCA design certification need date of Jan 2023 
and NATO operational need date of Jan 2024. To meet these dates, DCA 
capability must be incorporated into the 30P05 Operational Flight 
Program (OFP) production software build that will go into Lot 13 
production aircraft. Provided DCA capability is in the 30P05 OFP 
production software drop, all Lot 13 F-35As will receive this software. 
The JPO has incentivized Lockheed Martin to expedite delivery of DCA 
software into Lot 13 production aircraft. DCA stakeholders continually 
assess the certification processes and timelines since the JPO does not 
control nor lead some of the major processes such as Weapon System 
Safety Rules and Operational Certification.
    Mr. Turner. Please provide a status update of the F-35 Hybrid 
Product Support Integrator (HPSI). When you do expect the HPSI to be 
fully operational at Wright-Patterson? Are there any challenges or 
issues with moving the capability from Ft. Worth to Wright-Patterson?
    General Fick. The F-35 Hybrid Product Support Integrator (HPSI) 
achieved Initial Operational Capability in May 2016 and Full 
Operational Capability in July 2019. The process to relocate all HPSI 
functions from their current locations to Wright-Patterson Air Force 
Base (WPAFB) in Dayton, Ohio is ongoing today. The core team--to 
include the new HPSI Director and Deputy Director--has been stood up at 
WPAFB with functional areas beginning to transition as early as summer 
2020. The HPSI planning team is currently working through challenges 
associated with continuity of HPSI operations during the transition to 
mitigate the risk of knowledge and experience loss. This potential 
attrition of current employees during the move to WPAFB is one of our 
major concerns. We expect the full transition to WPAFB to be complete 
in June 2022.
    Mr. Turner. What are you doing to ensure that there are no Chinese 
parts in their F-35 supply chain? What contractual efforts are you 
taking to make sure this is the case with your sub-suppliers?
    Mr. Ulmer. The F-35 Joint Program Office controls the F-35 global 
supply chain through Lockheed Martin (LM) and Pratt & Whitney's 
management of contractual requirements. Together with our industry 
partners the F-35 program closely monitors the F-35 Global Supply Chain 
in accordance with strict Department of Defense acquisition 
requirements to ensure no parts or components from unapproved sources 
are included in delivered products. All F-35 contracts contain these 
strict acquisition requirements governed by Defense Federal Acquisition 
Regulations (DFARS) and Federal Acquisition Regulations (FAR) clauses. 
These clauses are passed down contractually with F-35 suppliers and 
their sub-tiers and compliance to regulations are certified during 
negotiations and surveyed in various forms during contract execution.
    Lockheed Martin maintains a risk and opportunity management plan to 
ensure continuous monitoring within the supply chain. The process and 
tools outlined in this plan provide visibility of potential events 
before they impact the program in a structured and disciplined manner, 
including risks and opportunities throughout the LM Aero supply base.
    Throughout the procurement lifecycle, we have embedded controls to 
ensure the integrity of our products from sourcing through contract 
closeout. During the source selection process, suppliers are required 
to have the necessary Proprietary Information Agreements, Non-
disclosure Agreements, Manufacturing License Agreements, Technical 
Assistance Agreements, site surveys, etc. Lockheed Martin also 
restricts sources of supply for certain specialty materials to domestic 
and Canadian sources. During the selection process, a supplier will not 
be solicited if they are owned and/or operate in a prohibited country.
    In conjunction with the Program Office, Integrated Product Teams, 
Supply Chain Management (SCM), Lockheed Martin Operations, and other 
functions, our Supplier Quality Management (SQM) team performs initial 
supplier reviews, including Quality Systems, Special Processes, and 
surveys required to identify suppliers approved for procurement. SQM 
performs on-going supplier control functions, including surveillance of 
the supplier's performance during manufacturing, to ensure compliance 
with the terms and conditions of the purchase order, and that 
consistent supplier quality assurance methods and practices meet 
program requirements. To defend the customer from counterfeit materiel, 
during site surveillance, LM Aero anti-counterfeit measures are put in 
place for prevention, detection, investigation, mitigation and 
reporting. If any potential non-conforming, counterfeit work, or 
tampered product were to be identified, the part(s) would immediately 
be quarantined, prompting an investigation by all appropriate functions 
to determine the origin of the part(s). For existing suppliers, LM uses 
all available open source data and some third-party vendors to track 
parent companies, subsidiaries, and joint ventures, including their 
country of incorporation. Triggers could be the mention of LM or 
supplier products with association to a non-qualifying country. 
Lockheed Martin Supply Chain investigates any potential merger and 
acquisition that could disrupt or change source of supply or limit 
competition. We develop a risk assessment and investigate parent 
company lineage including connections to China or other non-qualifying 
countries.
    Mr. Turner. What has industry learned from other fighter programs 
(i.e., F-22) that you have applied to improve sustainment outcomes for 
the F-35?
    Mr. Ulmer. The F-35 industry team applied numerous lessons learned 
from preceding fighter programs in developing the F-35. These lessons 
included advancing the design state of the F-22, F-16 and F-117. 
Specifically, the heart of the F-35's unrivaled situational awareness 
was derived from the F 22. The F-35's ability to avoid ground collision 
came from the F-16. The Prognostics and Health Management (PHM) system 
is an evolutionary cousin of the system employed in the F-22. The F-35 
Low Observable (LO) coating system also traces its lineage to the F-117 
and F-22. The Autonomic Logistics Information System (ALIS) is derived 
from the F 22's Integrated Management Information System (IMIS). These 
evolutions combined to produce the most advanced fighter in history. 
While these systems are intended to advance the airplane's warfighting 
capabilities, they also bring significant gains in reliability and 
maintainability. LRIP 6+ F-35s have the best reliability and 
maintainability performance in the USAF fighter inventory. By using 
predecessor aircraft as a starting point, the F-35 design team, many of 
whom transitioned from F 16 and F-22, were able to improve on high 
performing designs to gain an operational edge. The avionics suite 
takes advantage of improved cooling system performance as well as 
improved speed and throughput to provide the pilot with unparalleled 
battlefield performance. With each successive Low Rate Initial 
Production lot, we've seen improved performance and fewer failures as 
parts remain on the jet longer. More than 59% of the parts on the 
aircraft have never failed, and more than 84% are exceeding planned 
reliability. The improved PHM system aids maintainers in detecting and 
troubleshooting faults, and the design team continues to introduce 
improved fault detection and isolation techniques. The most recent 
software version reduced unwarranted parts replacements by more than 
70%. The first generation of LO materials used on the F-117 were vastly 
improved with the introduction of the F-22, but that coating system 
employs materials that require hours to cure. By comparison, the F-35 
coatings represent another full cycle of improvement and have reduced 
cure times significantly. As a result, the F-35's LO performance on all 
three variants is more than double the design requirements for all 
production lots. This results in unscheduled maintenance actions for 
the LO system occurring only half as often as the design requirement. 
Further, ongoing advances in coatings and processes will continue to 
reduce the LO burden on maintenance. The engineering team continues to 
advance these designs by introducing faster cure times and material 
improvements that will continue to reduce maintenance manhours per 
flying hour. Finally, ALIS has drastically improved on IMIS in terms of 
the capabilities it brings to the flight line and in terms of fleet 
management. That said, ALIS is operating on a technology base 
equivalent to the flip phones used in the early 2000s. In order to keep 
pace and maximize warfighter support, the industry team is supporting 
DOD in a major redesign of ALIS with a goal toward enabling true 
agility in software support taking advantage of the IT advancements 
over the past decade. Taken together, these advances have resulted in a 
17% improvement in Mission Capable (MC) Rate for the Combat Coded 
aircraft over the last year and enabled deployed units in the Middle 
East to achieve Full Mission Capable Rates exceeding 90% during their 
recent 6-month deployment all while taking advantage of data fusion 
technologies initiated on the F-22, that today provides unprecedented 
battlespace awareness and connectivity in the F-35 to not only the 
pilot; but the air, land, and sea assets available within the 
battlespace. Without the basic design elements from the F-35's 
ancestors, this level of performance improvement would not have 
occurred. The industry team is fully committed to continuing 
enhancements that will allow the F-35 to excel against the rapidly 
advancing threats our adversaries are fielding.
    Mr. Turner. What are you doing to ensure that there are no Chinese 
parts in their F-35 supply chain? What contractual efforts are you 
taking to make sure this is the case with your sub-suppliers?
    Mr. Bromberg. Pratt & Whitney (``P&W'') recognizes and remains 
compliant with applicable regulatory and contractual restrictions on 
sourcing F135 parts from the People's Republic of China (``China''). 
P&W does not presently procure any F135 parts from suppliers in China.
    P&W is subject to U.S. export-control regulations that restrict 
sourcing certain items from China. Specifically, the International 
Traffic in Arms Regulations (``ITAR'') and the Export Administration 
Regulations (``EAR'') establish license requirements, and corresponding 
policies of license denial, for exports to China of items (including 
technical data and software) controlled under the ITAR's U.S. Munitions 
List or the ``600 series'' of the EAR's Commerce Control List. In 
practice, these export controls preclude P&W from sourcing ITAR or 600-
series hardware from China by prohibiting the exchange of technical 
data necessary for the design and manufacture of the hardware.
    Beyond the regulations that govern international trade controls, 
F135 contracts awarded to P&W include terms and conditions that 
restrict the sourcing of parts from China, in particular the contract 
clause at DFARS 252.225-7007, Prohibition on Acquisition of Certain 
Items from Communist Chinese Military Companies (DEC 2018).
    P&W complies with the export-control regulations and contractual 
sourcing requirements that restrict sourcing of F135 parts from China. 
To that end, P&W's procurement processes involve multiple layers of 
controls to identify and prevent procurement of ITAR or 600-series 
hardware from Chinese suppliers. First, P&W's due-diligence program for 
on-boarding new hardware suppliers requires each new supplier to 
complete an online questionnaire developed by TRACE International. This 
questionnaire requires each supplier to provide business ownership and 
operational information so that P&W can, among other things, assess the 
legality of procuring hardware from that supplier. Following the 
initial screening process, if P&W proceeds to engage the supplier, P&W 
requires the supplier to agree to standard terms and conditions that 
require, among other things, compliance with applicable law, including 
U.S. export-control regulations.
    Further, as an automated control, P&W utilizes an Enterprise 
Resource Planning (``ERP'') software system with procurement 
functionality that blocks issuance of purchase orders to non-U.S. 
suppliers if P&W does not have an applicable export license or other 
authorization. This software provides an added safeguard against 
unauthorized sourcing of ITAR or 600-series items from China.
    With respect to sub-suppliers, P&W's supply chain is independently 
subject to the same regulatory restrictions described above. P&W 
facilitates compliance throughout the supply chain by indicating how 
its technical data disclosed to suppliers is controlled for export-
control purposes. As noted above, P&W's contracts with suppliers 
require suppliers' compliance with applicable law, including U.S. 
export-control regulations. Further, P&W flows to suppliers the 
mandatory clauses (which by their terms must be flowed by suppliers to 
sub-suppliers) and other relevant clauses that appear in P&W's F135 
prime contracts, including those that impose restrictions on sourcing 
F135 parts from China.
    Mr. Turner. What has industry learned from other fighter programs 
(i.e., F-22) that you have applied to improve sustainment outcomes for 
the F-35?
    Mr. Bromberg. The F135 program benefits from all current and prior 
military and commercial engine programs at Pratt & Whitney (P&W). P&W 
actively shares lessons learned across multiple disciplines to create 
an environment that supports rapid advancements and calculated risk-
taking. The F119 is the engine whose architecture is most closely 
related to the F135 engine. While the support structure for the F119 is 
less complex than the F135, the F119 has recently experienced its first 
scheduled depot maintenance wave, providing valuable learnings for the 
F135 program as it approaches first scheduled depot maintenance visits 
in 2021.
    The F135 program has evaluated and adopted numerous lessons learned 
from the F119 program. The following information is a summation of the 
more impactful opportunities in three key areas: people, process, and 
parts. P&W continues to focus on affordable readiness with a clear 
priority of always having the right part available, at the right place, 
at the right time--a core sustainment principle.
    People P&W manages programs based upon a matrixed structure which 
integrates disciplines from across the company into part-family teams. 
These teams are led by an engineer who has cradle-to-grave 
responsibility for his or her part family. The F119 program taught us 
that such a matrixed part family team was necessary for efficiently 
managing parts through the complexity of sustainment, including the 
integration of requirements for part distress limits, repair 
requirements, new parts, and the capacity to perform maintenance. The 
part family sustainment team lead manages priorities for parts through 
all phases of sustainment, including preparation for first scheduled 
depot maintenance. This team has proven invaluable to the F119 and F135 
programs, and our new commercial programs have adopted a similar 
approach.
    An additional resource that has proven invaluable to the F135 
program and is widely utilized across all other P&W engine programs is 
our Field Service Representatives. Embedded with each unit is a highly 
skilled P&W technical leader with knowledge of engine maintenance, 
technical data interpretation, distress mode evaluation, propulsion 
system diagnostics, and many other competencies. These individuals are 
capable of assisting the operators and maintainers to achieve effective 
readiness outcomes. Moreover, they impact affordability positively by 
supporting proactive maintenance decisions that can result in an 
engine's staying on wing versus being removed or that can allow a field 
team to perform maintenance locally in lieu of a depot visit for an 
engine.
    Processes Scheduled depot maintenance relies upon a complex 
integration of parts that are determined to be serviceable as is, 
require repair, or require replacement. Depending on the engine module, 
this integration can span hundreds to thousands of parts. The F119 
program adopted concepts from a process utilized by the U.S. Air Force 
to manage depot maintenance known as Depot Repair Enhancement Program 
(DREP), which evaluates part supportability related to depot 
maintenance plans. P&W created processes and tools to evaluate part 
demands for each engine module, identify gaps, and manage gap closure 
focused on short-, mid-, and long-term supportability. This 
supportability process assists with prioritization of actions, shows 
clear ownership of those actions, and is a standard communication tool 
to use both internally and externally. The F135 program is integrating 
these processes and tools into our standard work and is expanding upon 
them to enable use across the entire F135 global depot network (which 
represents an additional complexity versus the F119, which has one 
depot at the Oklahoma City Air Logistics Complex). The F135 team has 
also benchmarked other P&W engine programs such as the F117 program and 
our commercial programs to learn how to optimize the management of 
engines/modules through a global depot network. We have evaluated the 
tools they use and processes for prioritization and logistics 
efficiencies.
    Parts Scheduled depot maintenance occurs when a limit on flight 
hours, cycles, time, or specified deterioration has been reached. 
Limits drive an inspection or replacement of parts to maintain the 
performance and safety specifications of the engine. Parts that require 
inspection to remain in service must have published technical data, 
including deterioration limits, for depot inspectors to utilize. The 
F135 program has learned the value of having these limits established 
prior to the first depot visit, as well as the value of a streamlined 
approach to limit expansion and new limit generation to enable timely 
part dispositions. The most efficient means of reducing depot costs is 
to reuse parts, and the second-most-efficient means of reducing depot 
costs is to repair parts. The readiness of sources to perform piece-
part repairs was a valuable lesson learned from F119. Fifth-generation 
engine hardware that makes up the F119 and F135 engines requires some 
of the most advanced manufacturing processes in aerospace. These same 
precise and challenging processes are used to repair fifth generation 
engine piece parts. Dual-sourcing complex repairs, executing multi-step 
repairs in single locations, utilizing highly efficient sources for 
high-volume/low-complexity repairs, and close collaboration with repair 
suppliers to understand their process improvement recommendations are 
all lessons learned from the F119 program.
    Ensuring sufficient levels of new parts in inventory before the 
ramp of first scheduled depot maintenance visits is the last key lesson 
from the F119 program. In the beginning of scheduled depot maintenance, 
each engine module brings learning opportunities and discoveries of new 
and different deterioration that could not have been foreseen. Planning 
for sufficient amounts of parts to create a rotable pool of new and 
repaired parts to support depot turn-time reduction and compensate for 
long piece-part repair times while processes are matured is of critical 
importance. The creation of a rotable pool of parts requires 
preplanning and is an invaluable resource for the duration of a program 
to enable engine/module supportability. We are pursuing the opportunity 
to create a right-sized rotable pool for the F135 program but note that 
part funding challenges have created some headwind.
    While not exhaustive, the above summation of people, process, and 
parts lessons from the F119 program highlights the key learnings the 
F135 program is leveraging from its predecessors. We continue to learn 
from the F119 program as we strive to maintain high readiness levels 
and pursue our cost-reduction objectives to enable an affordable F135 
sustainment program.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. The Office of the Secretary of Defense has 
responsibility and funding to address deficiencies in the defense 
industrial base and to assure availability of suppliers to DOD for 
critical technologies. We are aware that the Department has identified 
OLED technology as critical to the F-35 Program and a host of other DOD 
programs, most notably that it is a solution for the category one 
deficiency for ``green glow'' in the HMD.
    What is your investment plan is to identify and apply sufficient 
funding to the domestic Active Matrix Organic LED industrial base to 
ensure a supply chain for future military displays?
    When do you estimate the OLED solution will be fielded for all 
operational F-35 aircraft?
    Secretary Lord. DOD conducted an industrial base assessment of the 
organic light-emitting diode (OLED) microdisplay industry in 2018, from 
which it identified a single qualified domestic supplier and a 
potential second source supplier. Currently, F-35 relies on a single 
source supplier to resolve the green glow issue in the Helmet Mounted 
Display (HMD). In order to improve the health of the OLED industrial 
base, the DOD has invested $8.75M since CY2014 to help improve 
technology maturity and manufacturing methods. The F-35 JPO is actively 
engaged in ensuring the domestic OLED supplier continues its business 
with military customers through continuing to place new orders. The JPO 
is currently receiving its first order of 62 Helmet Display Units 
(HDUs). The JPO also released a request for proposal (RFP) for an 
additional order of 62 OLED HDUs in October 2019 with award expected to 
support OLED HDU deliveries in Q4 CY2020. Having a qualified second 
source supplier is equally as important as maintaining the health of 
the primary source supplier. The F-35 Enterprise is working with 
Lockheed Martin (LM) and Collins Aerospace to identify and qualify a 
second OLED manufacturer within the United States by Q4 CY2021. In 
parallel, LM has also been directed to further mature the OLED HDU 
design, which will productionize OLED HDU requirements throughout the 
F-35 Enterprise in Lot 14 (FY2022) and beyond. The Industrial Policy 
office within the Under Secretary of Defense for Acquisition and 
Sustainment conducted a site visit to the only qualified OLED 
microdisplay supplier in November 2019. The Assistant Secretary of the 
Army (Acquisition, Logistics and Technology) ASA(ALT) and F-35 JPO SMEs 
accompanied the site visit in order to fully understand the challenges 
faced by the supplier in satisfying the warfighter's needs and 
maintaining its health within the defense industrial base. The 
Department, along with the services, is working on a funding plan to 
assure the availability of domestic OLED microdisplay suppliers.
    Mr. Brown. The Air Force, Navy, and Marine Corps recently signed a 
memorandum that directs acquisition programs to incorporate open 
architectures into our major programs to ensure that we have the 
agility to stay ahead of our adversaries. The F-35 was developed before 
these standards were established. As we look to Block 4 and beyond, has 
the F-35 Program identified which of the modern standards (including 
but not limited to OMS and FACE) will be required in future software 
releases beginning with Block 4 and how interoperability will be 
maintained between the competing architectures of each service?
    Secretary Lord. Block 4 hardware and software changes have opened 
the F-35 architecture to more efficiently accept OMS and FACE 
applications. One OMS development effort is currently underway--
embedded training (ET). Additionally, one FACE effort is awaiting 
contract award; this effort is directed at examining how an existing 
FACE application could fulfill a Block 4 capability (Required 
Navigation Performance Area Navigation). Additionally, each of the 
Block 4 capabilities are being examined on a case-by-case basis to 
determine the ability of an OMS/FACE application to fulfill new F-35 
requirements. TR3 hardware, a key hardware enabler for Block 4 
capabilities, has been developed using Commercial off the Shelf (COTS) 
processors and industry standard interfaces enabling the integration of 
OMS and FACE applications into the F-35. TR-3 enables OMS/FACE and 
fields with software release 40P01. The Program will never be fully OMS 
compliant across all F-35 capabilities but we will aggressively 
leverage its use on those capabilities for which the OMS standards are 
suitable.
    Mr. Brown. The establishment of the Joint Simulation Environment 
has been identified as the the primary requirement that is preventing 
the necessary testing for the F-35 program to complete IOT&E.
    What have been the reasons for the delay, and how is this affecting 
the transition to full rate production?
    Intellectual property issues have been given as a reason for delay 
in integration. Yet, the F-35 has been successfully integrated in other 
simulation environments such as the Virtual Warfare Center, which is 
run by Lockheed's competitor Boeing, for over a decade. What's the 
difference in intellectual property here that is driving the delay?
    Secretary Lord. Difficulties with integration of F-35 In-A-Box 
(FIAB), a Lockheed software model incorporating actual F-35 air vehicle 
software and fusion algorithms into the Joint Simulation Environment 
(JSE), have been the primary driver for delays in preparing JSE to 
support IOT&E. Completion of IOT&E and the following DOT&E report are 
required before the decision to move into Full Rate Production can be 
made. The F-35 models integrated into the Virtual Warfare Center and 
the JSE vary in fidelity and application. The Virtual Warfare Center 
utilizes the Virtual Cockpit which is an LM licensed effects-based 
model that emulates the projected performance of the F-35. This allows 
the Virtual Warfare Center to be used for requirements development and 
scenario excursions but it does not operate at the fidelity of actual 
F-35 performance to allow accreditation for IOT&E activities or use for 
future developmental activities. To be suitable for that purpose, the 
JSE utilizes FIAB, a high-fidelity model based on the actual F-35 
operational flight program software and fusion algorithms. Specific to 
the Joint Simulation Environment, LM asserts that certain portions of 
FIAB were developed exclusively at private expense, limiting the 
Government's right to use it. The Government challenged LM's assertions 
and determined that LM failed to support its assertions of development 
exclusively at private expense. LM appealed the Government's 
determination to the Armed Service Board of Contract Appeals. The JPO 
negotiated Special License Rights with LM for FIAB that are sufficient 
to support JSE requirements pending the outcome of the appeal.
    Mr. Brown. The Office of the Secretary of Defense has 
responsibility and funding to address deficiencies in the defense 
industrial base and to assure availability of suppliers to DOD for 
critical technologies. We are aware that the Department has identified 
OLED technology as critical to the F-35 Program and a host of other DOD 
programs, most notably that it is a solution for the category one 
deficiency for ``green glow'' in the HMD.
    What is your investment plan is to identify and apply sufficient 
funding to the domestic Active Matrix Organic LED industrial base to 
ensure a supply chain for future military displays?
    When do you estimate the OLED solution will be fielded for all 
operational F-35 aircraft?
    General Fick. The F-35 JPO is fully aware of and actively engaged 
with the Organic Light Emitting Diode (OLED) manufacturing challenges 
and has made continuing investments to improve domestic OLED industrial 
capabilities associated with the Program. Specifically, the JPO is 
addressing this concern by initiating a second order of 62 OLED Helmet 
Display Units (HDUs). The Request for Proposal (RFP) for this second 
order was released from the JPO in October 2019 with award expected to 
support OLED HDU deliveries Q4 CY20. The F-35 Enterprise is also 
working with Lockheed Martin (LM) to identify and qualify a second OLED 
manufacturer within the United States. In parallel, LM has been 
directed to further mature the OLED HDU design which will productionize 
OLED HDU requirements throughout the F-35 Enterprise in Lot 14 (CY22) 
and beyond. The F-35 program is currently taking delivery of the first 
order of 62 F-35 OLED HDUs to support the first two carrier-based F-35C 
squadrons for the United States Navy (USN) and United States Marine 
Corps (USMC). To date, 37 OLED HDUs have been received, with the 
remainder to deliver by February 2020. The combined 124 OLED HDUs to be 
delivered across both orders have been coordinated with the USN/USMC to 
meet requirements through CY23.
    Mr. Brown. The Air Force, Navy, and Marine Corps recently signed a 
memorandum that directs acquisition programs to incorporate open 
architectures into our major programs to ensure that we have the 
agility to stay ahead of our adversaries. The F-35 was developed before 
these standards were established. As we look to Block 4 and beyond, has 
the F-35 Program identified which of the modern standards (including 
but not limited to OMS and FACE) will be required in future software 
releases beginning with Block 4 and how interoperability will be 
maintained between the competing architectures of each service?
    General Fick. Block 4 hardware and software changes have opened the 
F-35 architecture to more efficiently accept OMS and FACE applications. 
One OMS development effort is currently underway--embedded training 
(ET). Additionally, one FACE effort is awaiting contract award; this 
effort is directed at examining how an existing FACE application could 
fulfill a Block 4 capability (Required Navigation Performance Area 
Navigation). Additionally, each of the Block 4 capabilities are being 
examined on a case-by-case basis to determine the ability of an OMS/
FACE application to fulfill new F-35 requirements. TR3 hardware, a key 
hardware enabler for Block 4 capabilities, has been developed using 
Commercial off the Shelf (COTS) processors and industry standard 
interfaces enabling the integration of OMS and FACE applications into 
the F-35. TR-3 enables OMS/FACE and fields with software release 40P01. 
The Program will never be fully OMS compliant across all F-35 
capabilities but we will aggressively leverage its use on those 
capabilities for which the OMS standards are suitable.
    Mr. Brown. The establishment of the Joint Simulation Environment 
has been identified as the the primary requirement that is preventing 
the necessary testing for the F-35 program to complete IOT&E.
    What have been the reasons for the delay, and how is this affecting 
the transition to full rate production?
    Intellectual property issues have been given as a reason for delay 
in integration. Yet, the F-35 has been successfully integrated in other 
simulation environments such as the Virtual Warfare Center, which is 
run by Lockheed's competitor Boeing, for over a decade. What's the 
difference in intellectual property here that is driving the delay?
    General Fick. Difficulties with integration of F-35 In-A-Box 
(FIAB), a Lockheed software model incorporating actual F-35 air vehicle 
software and fusion algorithms) into the Joint Simulation Environment 
(JSE) have been the primary driver for delays in preparing JSE to 
support IOT&E. Completion of IOT&E and the following DOT&E report are 
required before the decision to move into Full Rate Production can be 
made. The F-35 models integrated into the Virtual Warfare Center and 
the JSE vary in fidelity and application. The Virtual Warfare Center 
utilizes the Virtual Cockpit which is an LM licensed effects-based 
model that emulates the projected performance of the F-35. This allows 
the Virtual Warfare Center to be used for requirements development and 
scenario excursions but it does not operate at the fidelity of actual 
F-35 performance to allow accreditation for IOT&E activities or use for 
future developmental activities. To be suitable for that purpose, the 
JSE utilizes FIAB, a high-fidelity model based on the actual F-35 
operational flight program software and fusion algorithms. Specific to 
the Joint Simulation Environment, LM asserts that certain portions of 
FIAB were developed exclusively at private expense, limiting the 
Government's right to use it. The Government challenged LM's assertions 
and determined that LM failed to support its assertions of development 
exclusively at private expense. LM appealed the Government's 
determination to the Armed Service Board of Contract Appeals. The JPO 
negotiated Special License Rights with LM for FIAB that are sufficient 
to support JSE requirements pending the outcome of the appeal.
    Mr. Brown. Nearly every major fighter program in recent history has 
undergone a power plant upgrade that has enabled greater performance. 
With increasing threats such as faster, longer range air to air 
missiles and new technologies on the horizon like directed energy that 
will require additional power generation, the F-35 will likely be no 
different. How important is the Advanced Engine Technology Program to 
future blocks of the F-35, and how does a potential new engine fit into 
JPO's plans for the program?
    General Fick. The F-35 aircraft and F135 engine meets the 
warfighter's requirements today and will continue to provide sufficient 
power and cooling through the development and fielding of our Block 4 
capabilities. Therefore, at this time there is no plan to re-engine 
with an Adaptive Engine Transition Program (AETP) propulsion system. 
New F-35 requirements are articulated by our warfighters in a Draft 
Statement of Requirement (DSOR) document and submitted through the 
Requirements Working Group into the Joint and International F-35 
Governance Structure. To posture the program to respond in the event a 
propulsion-related DSOR is generated, the F-35 Operational Advisory 
Group (OAG) has approved a study to determine propulsion and related 
Thermal Management System (TMS) growth requirements for the F-35 in Lot 
17 and beyond. The JPO is currently developing a Statement of Work 
(SOW) to define the study scope and deliverables. This study, along 
with the associated user requirements for potential future 
capabilities, will help determine when a new or upgraded F-35 engine 
may be required.
    Mr. Brown. Which portions of the F-35 contract have unlimited 
rights, government purpose rights, restricted rights, and limited 
rights? At what point do the government purpose rights transition to 
unlimited rights? Where do the contractor and government disagree over 
which rights are granted?
    General Fick. There are currently thousands of items of technical 
data and computer software on F-35 contracts for which Lockheed Martin 
(LM) and its suppliers have asserted the Government has less than 
unlimited rights. Beyond these assertions, the full magnitude and 
impact of limitations on the Government's ability to obtain and utilize 
F-35 technical data and computer software is unknown. We find ourselves 
in this situation because initial F-35 development contracts did not 
require the delivery of appropriate technical data and the fact that 
contractors do not generate a data assertion until a contractual 
delivery requirement exists. We did not request delivery of these 
elements of technical data because early F-35 development was executed 
in a Total System Performance Responsibility (TSPR) environment. 
Specific to the Joint Simulation Environment, LM asserts that certain 
portions of F-35 In-a-Box (FIAB) were developed exclusively at private 
expense, limiting the Government's right to use FIAB. The Government 
challenged LM's assertions and determined that LM failed to support its 
assertions of development exclusively at private expense. LM appealed 
the Government's determination to the Armed Service Board of Contract 
Appeals. The JPO negotiated Special License Rights with LM for FIAB 
that are sufficient to support JSE requirements pending the outcome of 
the appeal. Government purpose rights transfer to unlimited rights five 
years after award of the contract action that required development of 
the item. The contractor and government agree on the process outlined 
in the Defense Federal Acquisition Regulation System (DFARS) that 
specifies the level of rights the government obtains in technical data 
and computer software based on how development of the data and/or 
software are funded. The government has formally challenged Lockheed 
Martin's assertion that it developed nine components of F-35 In-a-Box 
software exclusively at private expense, as noted above. F-35 In-a-Box 
is currently the only formal data rights challenge on the F-35 program. 
Future challenges may arise in the event our program needs for 
technical data encounter Lockheed Martin (or sub-contractor) assertions 
that those data are not available for delivery or use.
    Mr. Brown. The Air Force, Navy, and Marine Corps recently signed a 
memorandum that directs acquisition programs to incorporate open 
architectures into our major programs to ensure that we have the 
agility to stay ahead of our adversaries. The F-35 was developed before 
these standards were established. As we look to Block 4 and beyond, has 
the F-35 Program identified which of the modern standards (including 
but not limited to OMS and FACE) will be required in future software 
releases beginning with Block 4 and how interoperability will be 
maintained between the competing architectures of each service?
    Mr. Ulmer. Lockheed Martin started the F-35 with open architecture 
attributes available at original contract award. Doing so was part of 
the design. Over 70% of F-35 software is Supplier provided software. 
The SDD contract had requirements for Open Systems although the Air 
Force and Navy had not established OMS and FACE standards. The JPO 
utilized a series of reviews led by the Software Engineering Institute 
(SEI) to assess compliance with the goals by the Modular Open System 
Architecture (MOSA) consortium, which has been rebranded to Modular 
Open System Approach. These reviews produced positive findings and 
these attributes still support the services' goals going forward.
    1. Mission Systems, which is the area of focus for OMS, was modeled 
at the system level and at the software level using the Unified 
Modeling Language (UML) using stereotypes and design patterns assured 
common patterns throughout the design that provided for both modularity 
and reusable software across domains.
    2. For SDD COTS operating systems were chosen for use in Mission 
Systems. This included the Mercury Systems Operations System which was 
the dominate Operating System used in that domain at that time and 
supported many of the POSIX APIs. For the general-purpose processing 
Green Hills Integrity 178 was selected and ultimately directed by the 
contract because of the high security assurances. For Technology 
Refresh 3 (TR3) both Operating Systems will be replaced by Linux for 
the non-safety critical processing which is compliant with both FACE 
and OMS. The safety critical processing will utilize a COTS OS that 
supports a subset of POSIX required under the FACE safety critical 
profile.
    3. The software is also developed with layers that isolate 
application software from the underlying hardware and Operating System. 
This layer has allowed the Mission System Software to transition 
between TR0, TR1 and TR2 with ease and allowed the software to be 
easily moved to the Linux based trainers. The transition to TR3 is also 
expected to be straight forward. As Lockheed Martin worked with the USG 
on the acquisition strategy for the Technical Refresh 3 (TR3) 
processor, Lockheed Martin continued pursuit of open systems 
architecture. During this time, the USG considered FACE, HOST, and OMS, 
each of which have some different constructs.
    The program has established an approach for evaluating new 
capabilities and how OMS or FACE can be applied.
    1. Many of the new capabilities are simply expansions of 
functionality of existing components in the system. In this case the 
best approach may be to implement the new capability by simply 
modifying the existing components. This approach minimizes additional 
translation software and additional regression testing. There will be 
exceptions and they are discussed below.
    2. When a new capability includes adding new components to the 
system, then those components would be assessed for a FACE or OMS 
solution. The selection of which standard would be driven by multiple 
factors. a. If the component has safety or nuclear considerations, then 
OMS is not applicable, and FACE would have to be used. b. If a 
component already exists that is FACE or OMS compliant, then that would 
determine the approach. c. The JPO, based on future use on other 
programs, directs the use of either FACE or OMS and the basis for the 
new component.
    3. There is also the potential that an existing F-35 component has 
a potential for use on other programs. In that case, the JPO can direct 
that existing components be converted to OMS or FACE. This would cause 
additional cost for the F-35 but may save costs in other areas. 
Components that impact the integrated sensor management and fusion or 
safety critical threads could cause significant regression testing 
which would need to be considered.
    Finally, it is critical to realize that as the F-35 modernizes, 
complex improvements are being incorporated. The nature of the highly 
integrated F-35 computational need will not change. This means that as 
a single-seat fighter with the potential to fly well into ``harm's 
way'', that fusion and the balance of all F-35s have to operate in a 
rapid integrated manner in order to counter our enemies' advancing 
threat. As such, there is no separate F-35 architecture for one service 
vs another. While Lockheed Martin can and does integrate other 
developers' applications and capabilities, the baseline software is 
structured to enable continued integration of other people's software, 
while preserving dominance of our fighter for our services, partners 
and foreign military sales countries.
    Mr. Brown. The establishment of the Joint Simulation Environment 
has been identified as the the primary requirement that is preventing 
the necessary testing for the F-35 program to complete IOT&E.
    What have been the reasons for the delay, and how is this affecting 
the transition to full rate production?
    Intellectual property issues have been given as a reason for delay 
in integration. Yet, the F-35 has been successfully integrated in other 
simulation environments such as the Virtual Warfare Center, which is 
run by Lockheed's competitor Boeing, for over a decade. What's the 
difference in intellectual property here that is driving the delay?
    Mr. Ulmer. The U.S. Government Joint Simulation Environment (JSE) 
has been working to integrate its first model-based Fifth Generation 
weapons system, the F-35, into an amalgamated Land, Sea, and Air 
simulation environment to conduct testing and accredit the simulation 
as a supplement to open-air formal Operational Testing. This high-
fidelity simulation environment requires complex representations of the 
F-35; including Operational Flight Program (OFP), real-time models, and 
other software code for each major piece of hardware, weapon, software 
algorithm and any key features of the Air System. The F-35 is a highly 
integrated air system utilizing inputs from all its sensors, mission 
planning, and on-board data to coalesce and fuse an operational picture 
with attack options for the single-seat pilot. This is different from 
most, if not all, fourth generation weapons systems. Fourth generation 
weapons systems employ federated building blocks that can be worked 
separately; however, the strength of the F-35 comes from tight 
integration where all systems work together to achieve dominance. 
However, when the USG first embarked on the JSE integration, more of a 
federated approach was anticipated by government JSE personnel. This 
approach met with integration difficulties and resulting delays; 
including, the necessary work such as USG delayed accreditation of the 
NAVAIR special access development facility in Oct 2018. As time 
progressed, the JSE realized that Lockheed Martin was needed to help 
stand up models and integrate them in a tightly integrated simulation 
environment. Hence, at the USG's request, Lockheed Martin has placed 
full-time support personnel in place at Patuxent River NAS and 
routinely brings in subsystem experts to stand up their capability. The 
JSE and LM teams are working closely together to help integrate F-35 
baseline and subsequent modernization capabilities into Joint 
Simulation Environment (JSE). With respect to the question regarding 
the JSE simulation vs the Lockheed Martin F-35 presence at the Boeing 
Virtual Warfare Center, it is important to understand there are 
fundamental differences between the two. Lockheed Martin has a similar 
high-fidelity simulator ``VSIM'' (F-35 Verification Simulator) which 
provided key knowledge and experience helping JSE integrate this Fifth-
Generation capability. Both JSE and VSIM are unlike the Virtual Warfare 
Center's (VWC) implementation which is ``effects based.'' Put simply, 
the VWC maps effects-based outputs to a given set of input stimuli. The 
VWC is able to have a lower-fidelity simulation environment as the 
facility is used to identify technology investments and tactical 
considerations but is not being used to supplement flight test 
requirements. During testimony, the PEO cited Intellectual Property 
(IP) as the issue that drove JSE to be late. Even though there were 
Intellectual Property issues that needed to be worked, Lockheed Martin 
demonstrated our working VSIM in an LM developed environment for the 
JSE team to duplicate if desired. The F-35 simulation is comprised of 
many models--just some of which are Northrop Grumman Radar, BAE 
electronic warfare, and many different suppliers' models. It had 
literally taken years for Lockheed Martin to obtain licenses and/or 
permission to utilize these models in our VSIM product. In fact, over 
70% of the F-35 is represented by suppliers external to LM F-35 
program. Most of those models were not covered in LM's licenses/
permissions as transferable to the USG and LM did not own them nor have 
rights to provide them to others. However, LM did have one aspect of 
wholly LM developed IP that is the root of all our Fifth-Generation 
high-fidelity simulations that support our VSIM models to run in real 
time. LM licensed this capability to JSE and upon special request (over 
and above the license) showed the source code to named NAVAIR personnel 
to help JSE progress even more. Even after LM highlighted the F-35 OFP 
and helped identify the supplier's models necessary, there were other 
parallel activities that had to be worked for JSE to be successful 
outside of Intellectual Property constraints. In the timeframe of 
concern, JSE began procuring simulation computers, environments, F-35 
cockpits, and other hardware enablers for their high-fidelity 
simulation. Unfortunately, their initial federated view of the 
simulation need did not push the JSE team into taking advantage of LM 
technical help to integrate quickly, which led to delays in standing up 
the JSE. In summary, LM believes the USG underestimated the complexity 
of implementing F-35 5th Generation highly integrated technology into a 
high-fidelity simulation environment. Further, in the beginning the USG 
attempted to be successful without involving Lockheed Martin for rapid 
learning and support, only contributing to the delays. The delays are 
technical in nature--making multiple models into tightly integrated 
code which must run in real time with fusion engines and is much more 
complex than a VWC effects-based simulation. The LM and JSE team are 
working closely together, progressing rapidly, and are fully teamed for 
success.
    Mr. Brown. Nearly every major fighter program in recent history has 
undergone a power plant upgrade that has enabled greater performance. 
With increasing threats such as faster, longer range air to air 
missiles and new technologies on the horizon like directed energy that 
will require additional power generation, the F-35 will likely be no 
different. How important is the Advanced Engine Technology Program to 
future blocks of the F-35, and how does a potential new engine fit into 
Lockheed's plans for the program?
    Mr. Ulmer. Lockheed Martin, along with the F-35 Joint Program 
Office, Government Think Tanks, and Industry, continuously evaluate the 
capabilities of our adversaries to identify enhancements for the F-35 
Air System. The threats are evolving at a rapid pace with focus areas 
in producing large quantities of Fifth Generation-like fighter 
platforms, Unmanned Air Vehicles (UAVs), Surface-to-Air Missile Systems 
(SAMs), long-range weapons, Naval assets, powerful radars, lasers, 
hypersonics, cyber, and expanding their frequency diversity to include 
passive systems. Not only are they advancing their weapon systems into 
each of these areas, but they are producing in numbers that drive our 
5th Gen capability for the future. Lockheed Martin applies Operational 
Analysis (OA) to not only analyze F-35 capability needs for this future 
fight, but also to evaluate the F-35 improvements necessary when 
operating in joint multi-domain operations against this advancing 
threat. Lockheed Martin's OA shows that a propulsion system upgrade 
improves tactical and operational performance of the F-35 against the 
advanced threats expected to be deployed in the 2025--2030 timeframe. 
This propulsion upgrade allows for improvements in range, thrust, and 
Power and Thermal Management System (PTMS) capacity to support advanced 
sensors and system upgrades that will deliver dominance against our 
adversaries. As our adversaries improve their capabilities with longer 
range weapons, the F-35's range and persistence needs to increase. In 
addition, enabling the F-35 to carry additional weaponry will improve 
lethality but will require external carriage of many of the enhanced 
weapons. To allow for increased range with these external weapons, 
range and thrust enhancements are required. In addition, due to 
adversary mission systems improvements, the F-35 must continuously 
evolve software and hardware capabilities. Those new F-35 mission 
systems will require PTMS improvements. Throughout the Block 4 (Follow-
on Modernization) efforts, Lockheed Martin continuously evaluates the 
full mission capabilities required to derive the range, thrust, and 
PTMS capacity remaining in the platform for additional enhancements. 
Lockheed Martin views the Adaptive Engine Transition Program (AETP) as 
a critical technology development and maturation effort that offers 
significant propulsion system improvements for the F-35A and 
potentially F-35C variants. Our F-35 technology development roadmaps 
include a propulsion system upgrade with the AETP engine. Lockheed 
Martin is working with AFLCMC, Pratt & Whitney, and General Electric to 
evaluate integration of the AETP engine in the F-35 aircraft. This 
effort is designed to facilitate an abbreviated engine upgrade 
Engineering and Manufacturing Development (EMD) program.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. The F-35B's extended range and data collection 
capabilities provide targeting information far beyond the capabilities 
of current amphibious warships. How would a reduction in F-35Bs impact 
the Navy and Marine Corps distributed operations?
    General Fick. The capability of the F-35B as a fifth generation 
fighter gives us a low-observable capability, which allows for flight 
in regimes and envelopes not available to fourth generation aircraft. 
This gives us the opportunity to penetrate non-permissive environments 
and destroy long-range targets that could be embedded anywhere, to 
include the mainland of the threat nation hosting these targets. F-35B 
capabilities include sensing, collecting, and in some cases destroying 
various targets with a significantly reduced kill-chain. The Marine 
Corps continuously evaluates the balance of F-35B and F-35C aircraft. 
The service considers both variants highly capable in the expeditionary 
environment for complimentary reasons. While any reduction in F-35Bs 
would adversely impact our ability to distribute a 5th-generation 
maritime capability across our Marine Expeditionary Units, those 
impacts can be mitigated by the capabilities of the F-35C, which can 
use expeditionary arresting gear to operate out of airstrips which 
don't allow conventional operations. A reduction in both variants, F-
35B and the F-35C, would limit the Marine Corps' total TACAIR capacity 
and the services combat flexibility against current sophisticated enemy 
air defenses threat capabilities which will certainly continue to 
advance over time. The remaining life of our aging legacy fleet, whose 
efficacy against future threats is limited, stresses the importance of 
having available F-35B aircraft to support transition. Ultimately, a 
reduction in F-35B aircraft limits support to distributed-operations 
requirements assigned in OPLANS and puts at risk the capacity to 
support Global Force Management in support of the National Defense 
Strategy.
    Mr. Banks. With so much uncertainty around a ``mix'' of F-35B and 
F-35Cs, how is the DOD working with industry suppliers to clarify 
future production rates?
    General Fick. The JPO stays in continuous discussions with the U.S. 
Marine Corps and the Department of the Navy regarding their aircraft 
requirements. As decisions are contemplated, we discuss with our 
industry partners to ensure they understand our capacity demands and 
timing requirements. Lockheed Martin currently has capacity to build 57 
F-35Bs and F-35Cs per year in its Ft Worth, TX facility. Beginning in 
Lot 15, that capacity increases to an F-35B/F-35C mix of 60 aircraft 
per year. There is additional capacity to produce three additional F-
35Bs per year at the Italian FACO in Cameri, Italy.
    Additionally, as we prepare to release the Lot 15 Request for 
Proposal (RFP), we will be requesting variable quantity pricing to 
accommodate any reasonable changes in the mix after the RFP has been 
released. We have remained in dialogue with both Lockheed Martin and 
Pratt & Whitney about potential for change to minimize any negative 
impacts.
    Mr. Banks. What is the status of Lockheed Martin developing 
alternative sourcing for Turkey suppliers?
    Mr. Ulmer. Source selection of all parts requiring alternate 
sources is complete. As of 10 December 2019, 98% of the parts are 
forecasted to not have supply disruption with a 31 March 2020 cutoff. 
There are currently 15 non-supporting parts to a 31 March 2020 Turkish 
supply cutoff which include: Collins Aerospace landing gear 
subcomponents (6 parts), Northrop Grumman center fuselage major 
component (1 part), Northrop Grumman non-center fuselage hardware (2 
parts), Lockheed Martin Airframe machined parts (3 parts), and Marvin 
Alternate Mission Equipment (3 parts). If the source of supply from 
Turkey is not allowed to continue through December 2020, the non-
supporting parts are projected to create production line impacts that 
may result in behind schedule deliveries for up to 81 aircraft. 
Lockheed Martin continues to work closely with our supply base to 
expedite part deliveries to support the 31 March 2020 cutoff or develop 
production mitigation plans to minimize impacts to aircraft production 
and delivery.
    Mr. Banks. What are some of the challenges to agile software 
development, such as ALIS, when doing business with the government? Are 
there things Congress or the Department can do to help speed things up 
so we are getting technology improvements to the warfighter more 
rapidly?
    Mr. Ulmer. Lockheed Martin has numerous experiences developing 
software using agile methodologies in the execution of government 
contracts. From those experiences we have seen practices that have 
worked well and practices that could be improved. The following are 
some practices that we have seen that could be improved upon and 
recommendations for improvement:
    <bullet>  Upfront contracting actions can delay the start of 
program execution and release timelines due to lengthy proposal and 
negotiation timelines. In addition to needing separate contracts for 
development and release of software, which drive two contract 
proposals, the lack of flexible contracting, including no Time and 
Materials contracts and limited Level of Effort contracts, forces 
detailed Statements of Work to be negotiated and limits flexibility 
after contract award. It is recommended that these processes be 
reviewed for improvement where appropriate.
    <bullet>  Individual contracts have varying requirements for 
software development artifacts/reviews/metrics. For example, some 
contracts have requirements for Preliminary Design Reviews and Detailed 
Design Reviews, whereas other contracts have moved away from the 
requirement for these reviews and instituted periodic incremental 
reviews. A consistent and reduced set of artifacts/reviews/metrics 
across software development contracts would allow for greater 
efficiency in the development efforts.
    <bullet>  Government Security Clearances take many months to 
process. This slows down the ability to ramp up staffing for new 
projects with developers needed to work classified software 
development. An improved cycle time for Government Security Clearances 
would allow fast ramp up of new projects.
    <bullet>  Authority To Operate (ATO) timelines for IT systems used 
to execute contracts can slow the start of projects by months. 
Similarly, ATO of contracted products can add several months into 
product delivery schedules, delaying release to production. It is 
recommended that the ATO process be reviewed to identify opportunities 
for improved performance while maintaining the appropriate security 
posture.
    <bullet>  Historical oversight practices (such as audits) that are 
applied to agile software development can be unnecessarily burdensome 
and contradicts the stated goals of agile software development 
principles. They have the effect of requiring unnecessary documentation 
to be produced which does not contribute to the quality of the product. 
The necessity of these practices should be reviewed against the value 
they provide and scaled back when appropriate.
    <bullet>  In some programs, contracts have been executed that 
specifically prevent the complete development cycle from being 
employed. For example, software development was funded, but per the 
statement of work, complete test was specifically disallowed from being 
performed. This results in a non-agile process on programs intending to 
use the agile methodology. It is recommended that this practice be 
avoided in future contracts.
    <bullet>  After development and test are complete often the release 
of the product to the warfighter is delayed by various certification 
activities, including, but not limited to weapon certification, 
airworthiness, and export authorization. Lockheed Martin recognizes the 
vital importance of these activities and the desire to deliver 
capability to the warfighter as rapidly as possible, and to that end we 
are recommending that these processes be more effective and efficient 
by utilizing all available advances in technology to compliantly 
expedite these efforts.
    <bullet>  Funding: Consistent and synergistic funding of Agile 
pursuits has been a challenge. Due to contracting issues, but also 
funding within the contracts, the ability to perform contracted Agile 
work ebbs and flows between isolated contracts, as well as within 
contracts where funding is provided in piece parts.
    <bullet>  Earned Value (EV): The ANSI Standard DCMA Imposed EV 
system has inherent difficulties dealing with Agile. For instance, in 
Agile we do Program Increment planning routinely within a given 
contract--where scope and pursuits are adjusted. Further, progress is 
reported on ``Storypoints'' and other non-standard methodologies that 
the traditional EV tools and report formats do a poor job reflecting. 
These practices, if improved, could directly reduce the time to deliver 
capabilities to the warfighter by using current technology to 
compliantly reduce the duration of contract award, development, and 
post development activities. Lockheed Martin looks forward to working 
collaboratively with the government to identify improvements to these 
practices.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. In response to House report language in the FY19 NDAA, 
earlier this year DOD confirmed to the committee significant 
limitations related to F-35 sensor data processing, storage, in-flight 
transmission and post-mission data retrieval and dissemination. a) 
Please provide the current Block 3F system capability and limitations 
to collect, store and transmit content and complex metadata associated 
with synthetic aperature radar (SAR), moving target indicator (MTI), 
multi-spectral electro-optical (EO) and infrared (IR) and RF 
electromagnetic transmissions; b) Please provide all Block 3 and Block 
4 system program requirements to collect, store and share information 
collected by F-35 sensors.
    General Fick. There are no outstanding significant limitations to 
the Block 3F system capability to collect, store, and transmit complex 
metadata; no Category I Deficiency Reports (DRs) exist related to these 
capabilities. With the introduction of Block 4 capabilities, however, 
there is an overall requirement for improved data processing, handling, 
and storage to facilitate collection, storage, and sharing of data from 
F-35 sensors and Mission Systems. The Technology Refresh 3 (TR3) 
hardware upgrade of the Integrated Core Processor, Aircraft Memory 
System, and Panoramic Cockpit Display Electronics Unit and Display Unit 
will be introduced in 2023 (Lot 15) to provide a minimum of 4 times the 
current processing power as well as significantly improved data storage 
capacity. Further detail on full Block 3 and Block 4 system program 
requirements in this area can be provided in an appropriate setting at 
the committee's convenience.
    Mr. Bacon. In response to my question last year, the JPO stated 
that the F-35 program had no requirement to transmit a digital call for 
fire (CFF) request and likewise had no requirement to be interoperable 
with Army and Navy fire control systems like AFATDS, TLAM etc. Please 
confirm if this is still the case and summarize how the F-35 intends to 
provide digital CFF and targeting support to U.S. and NATO Army, Navy, 
Marine and SOF units in permissive and contested EMS environments.
    General Fick. The F-35 does not have a requirement for digital Call 
For Fire (CFF). However, the F-35 has several means to communicate 
digitally with various ground and air support units to facilitate air 
to ground targeting. Ongoing studies related to further data 
dissemination in permissive environments continues to feed F-35s 
requirements and roadmaps. New F-35 requirements are articulated by our 
warfighters in a Draft Statement of Requirement (DSOR) document and 
submitted through the Requirements Working Group into the Joint and 
International F-35 Governance Structure.
    Mr. Bacon. Last year in response to my question the JPO stated that 
new tools were being fielded to shorten the timeline to create a new 
mission data file (MDF), then estimated to take 12-18 months. a) Have 
these tools been fielded and how long does it currently take the USRL 
to create a new mission data file? b) When a new threat is detected, 
how long does it take to push an update to the F-35 defense system?
    General Fick. a) Yes, several improvements to the current tools, 
reprogramming lab infrastructure, and reprogramming processes continue 
to reduce the time to produce and field mission data files (MDFs). 
While multiple factors affect MDF production timelines, we are seeing 
that production timelines are trending in the right direction. To field 
a new MDF in a new region of the world, the predicted timeline is 
currently approximately 16 months. Additional improvements are 
scheduled for fielding by February 2020, which will bring that timeline 
down to approximately 9 months.
    b) The United States Reprogramming Lab is currently producing 
mission data file updates for new threats in an existing MDF between 
22-118 hours. As mentioned above, multiple factors can affect this 
timeline. The same tool and infrastructure improvements cited above are 
projected to reduce these production timelines as well.

                                  <all>
</pre></body></html>
